APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS FOR
THE FEDERAL CIRCUIT
CONTINENTAL CIRCUITS LLC,
Plaintiff-Appellant
v.
INTEL CORPORATION, IBIDEN U.S.A.
CORPORATION, IBIDEN COMPANY LIMITED,
Defendants-Appellees
2018-1076
Appeal from the United States District Court for
the District of Arizona in No. 2:16-cv-02026-DGC,
Judge David G. Campbell.
Decided: February 8, 2019
JEFFREY A. LAMKEN, MoloLamken LLP,
Washington, DC, argued for plaintiff-appellant. Also
represented by MICHAEL GREGORY PATTILLO,
JR., BENJAMIN THOMAS SIROLLY; BRADLEY
WAYNE CALDWELL, JASON DODD CASSADY,
JOHN AUSTIN CURRY, WARREN JOSEPH
MCCARTY, III, Caldwell Cassady & Curry, Dallas,
TX.
JOSEPH J. MUELLER, Wilmer Cutler Pickering
Hale and Dorr LLP, Boston, MA, argued for
defendants-appellees. Also represented by KEVIN
GOLDMAN, RICHARD WELLS O'NEILL, SARAH B.
PETTY, KEVIN SCOTT PRUSSIA; NINA S.

2a
TALLON, Washington, DC. Defendant-appellee Intel
Corporation also represented by MATTHEW JOHN
HULT, Intel Corporation, Santa Clara, CA.
Before LOURIE, LINN, and TARANTO, Circuit
Judges.
LOURIE, Circuit Judge.
Continental Circuits LLC appeals from the
judgment of the United States District Court for the
District of Arizona of noninfringement of the asserted
claims of U.S. Patents 7,501,582 (“the ’582 patent”);
8,278,560 (“the ’560 patent”); 8,581,105 (“the ’105
patent”); and 9,374,912 (“the ’912 patent”). See Final
Judgment, Cont’l Circuits LLC v. Intel Corp., No. 162026 (D. Ariz. Sept. 12, 2017), ECF No. 273. The
parties stipulated to a judgment of noninfringement,
see Stipulation & Joint Motion, Cont’l Circuits LLC v.
Intel Corp., No. 16-2026 (D. Ariz. Sept. 7, 2017), ECF
No. 266, based on the district court’s claim
construction of certain claim terms, see Cont’l Circuits
LLC v. Intel Corp., No. 16-2026, 2017 WL 3478659 (D.
Ariz. Aug. 9, 2017) (“Claim Construction Order”).
Because we conclude that the district court erred in its
claim construction, we vacate the judgment of
noninfringement and remand for further proceedings.
BACKGROUND
Continental owns the ’582, ’560, ’105, and ’912
patents, which are directed to a “multilayer electrical
device . . . having a tooth structure” and methods for
making the same. See, e.g., ’582 patent Abstract. The
four patents at issue, which have since expired, are
continuations of one another and thus share

3a
substantially the same specification. 1 According to the
patents, multilayer electric devices “suffer from
delamination, blistering, and other reliability
problems,” especially when “subjected to thermal
stress.” Id. col. 1 ll. 30–32. The inventions of the
patents purport to solve this problem by “forming a
unique surface structure . . . comprised of teeth that
are preferably angled or hooked like fangs or canine
teeth to enable one layer to mechanically grip a second
layer.” Id. col. 1 ll. 52–57. The specification further
explains that the increased surface area of the teeth
improves the adhesion of the layers to one another.
See id. col 1 l. 58–col. 2 l. 6.
The patents additionally “theorize[] . . . that the
best methods for producing the teeth [are] to use nonhomogenous materials and/or techniques . . . such that
slowed and/or repeated etching will form teeth instead
of a uniform etch.” Id. col. 2 ll. 24–29. The specification
then explains that “[o]ne technique for forming the
teeth is . . . the swell and etch or desmear process,
except that contrary to all known teachings in the
prior art . . . a ‘double desmear process’ is utilized.” Id.
col. 5 ll. 40–44. It continues by explaining that “the
peel strength produced in accordance with the present
invention is greater than the peal [sic] strength
produced by the desmear process of the prior art, i.e.,
a single pass desmear process.” Id. col. 7 ll. 3–6. The
specification then discloses that “[i]n stark contrast
with the etch and swell process of the known prior art
. . . a second pass through the process . . . is used”
because it “make[s] use of [the] non-homogenaities
In this opinion, citations are only to the ’582 patent
specification because the specifications of the four patents are
substantially identical.

1

4a
[sic] in bringing about a formation of the teeth.” Id.
col. 9 ll. 1–5.
Continental sued Intel Corp.; its supplier, Ibiden
U.S.A. Corp.; and Ibiden U.S.A. Corp.’s parent
company, Ibiden Co. Ltd. (collectively, “Intel”), for
patent infringement in the District of Arizona.
Continental asserted claims 85, 87, 89, 92, 94, 95, 100,
109, 114, and 122 of the ’582 patent; claims 14 and 19
of the ’560 patent; claims 13, 53, 71, 80, 82, 86, 88, 91,
95, 97, 101, and 103 of the ’105 patent; and claims 2,
3, 18–20, and 26–28 of the ’912 patent. All of the
asserted claims include claim limitations regarding
the “surface,” “removal,” or “etching” of “a dielectric
material” or “epoxy,” which the district court
construed together as the “Category 1 Terms,” and
their construction depends on resolving whether they
should be limited to a repeated desmear process. See
Claim Construction Order, 2017 WL 3478659, at *2;
see also J.A. 1879–89. 2
Claim 100 of the ’582 patent is illustrative of a
claim that includes a “surface” claim term and reads
as follows:

The Category 1 Terms include “surface,” “removal,” and
“etching” related claim terms:
•
The “surface” claim terms are “surface of a
dielectric material,” “surface of a layer of a dielectric
material,” and “a dielectric material comprising a
surface.”
•
The “removal” claim terms are “removal of a
portion of the dielectric material,” and “removal of some
of the dielectric material.”
•
The “etching” claim terms are “etching [of] the
epoxy” and “etching [of] the dielectric material.”
The district court construed all of these claim terms together.
2

5a
100. An electrical device including:
a conductive layer built up so as to fill
undercuttings with respect to a surface of a
dielectric material so as to form teeth in
cavities, a plurality of the undercuttings
being obtuse to the surface, wherein the
conductive layer is a portion of circuitry of
an electrical device, and a plurality of the
teeth are within the range of 1 tenth of a mil
deep to 1.75 tenths of a mil deep, and
wherein at least one of the cavities includes
an upgrade slope with respect to the surface
of the dielectric material, and one of the
teeth engages a portion of the dielectric
material at the slope.
’582 patent col. 18 ll. 48–59 (emphases added).
Claim 114 of the ’582 patent is representative of a
claim that includes a “removal” claim term and reads
as follows:
114. An electrical device including:
a dielectric material having a surface
remaining from removal of a portion of the
dielectric material; and
means for mechanically gripping a
conductive layer to the surface of the
dielectric material so that the conductive
layer is burrowed in and under the top
surface of the dielectric material, wherein
the conductive layer forms a portion of
circuitry of an electrical device, wherein the

6a
means for mechanically gripping is
comprised of teeth, and a plurality of the
teeth are within the range of 1 tenth of a mil
deep to 1.75 tenths of a mil deep, and
wherein at least one of the cavities includes
an upgrade slope with respect to the surface
of the dielectric material, and one of the
teeth engages a portion of the dielectric
material at the slope.
Id. col. 20 ll. 30–44 (emphasis added).
Claim 14 of the ’560 patent is representative of a
claim that includes an “etching” claim term and reads
as follows:
14. An article of manufacture, the article
comprising:
an epoxy dielectric material delivered with
solid content sufficient that etching the
epoxy forms a non-uniformly roughened
surface comprising cavities located in and
underneath a surface of the dielectric
material, and sufficient that the etching of
the epoxy uses non-homogeneity with the
solid content to bring about formation of the
non-uniformly roughened surface with at
least some of the cavities having a first
cross-sectional distance proximate the
initial surface and a substantially greater
cross-sectional distance distant from the
initial surface, and
a conductive material, whereby the etching
of the epoxy forms the cavities, and a portion

7a
of the conductive material in the cavities
thereby forming teeth in the cavities,
wherein the etching of the nonhomogeneous composition forms the
cavities, and wherein the conductive
material forms a portion of circuitry of an
electrical device.
’560 patent col. 10 ll. 7–25 (emphases added).
Aside from the “device” and “article of
manufacture” claims recited above, the asserted
claims also include process and product-by-process
claims. Claims 2 and 18 of the ’912 patent are
illustrative and read as follows:
2. A process of making an article of
manufacture, the process comprising:
implementing a circuit design for an
electrical device by coupling a dielectric
material delivered with solid content, the
dielectric material and the solid content
being
non-homogeneous
materials,
sufficient that etching the dielectric
material forms a non-uniformly roughened
surface comprising cavities located in, and
underneath a surface of, the dielectric
material, and sufficient that the etching of
the
dielectric
material
uses
nonhomogeneity with
the solid content in bringing about
formation of the non-uniformly roughened
surface with at least some of the cavities
having a first cross-sectional distance
proximate the surface and a greater cross-

8a
sectional distance distant from the surface,
with a conductive material, whereby the
etching of the dielectric material forms the
cavities, and a portion of the conductive
material in the cavities thereby forming
teeth in the cavities, wherein the etching of
the non-homogeneous composition forms the
cavities, in circuitry of the electrical device.
....
18. A product produced by the process of
claim 2.
’912 patent col. 9 l. 58–col. 10 l. 11, col. 11 l. 14.
The district court construed the Category 1 Terms
to require that the “surface,” “removal,” or “etching” of
the dielectric material be “produced by a repeated
desmear process.” See Claim Construction Order, 2017
WL 3478659, at *2–3 (emphasis added). The district
court concluded that Intel had “met the exacting
standard required” to read a limitation into the claims.
Id. at *3. Specifically, the district court found that the
specification not only “repeatedly distinguishe[d] the
process covered by the patent from the prior art and
its use of a ‘single desmear process,’” id. at *4, but also
characterized “the present invention” as using a
repeated desmear process, see id. at *5.
Additionally, the district court found that the
prosecution history corroborated its construction. The
examiner made indefiniteness and written description
rejections during the prosecution of the ’560 patent of
the claim limitation “etching of the epoxy uses nonhomogeneity with the solid content,” which is used to
bring about formation of the non-uniformly roughened

9a
surface of the angular toothshaped cavities. See J.A.
2122–23. In response to the office action, Continental
submitted an expert declaration explaining that the
“etching” process disclosed in the specification uses
“this known Probelec XB[ ]7081 resin” and “two
separate swell and etch steps” as “a technique which
forms the teeth.” J.A. 2074; see also J.A. 2068–69. The
district court found that the expert declaration “clearly
describe[d] the patented method as involving two
etching processes.” Claim Construction Order, 2017
WL 3478659, at *6. Moreover, the district court
observed that extrinsic documents produced by the
inventors state the use of a “two pass desmear cycle”
and that “we use a double pass desmear to achieve the
tooth structure.” Id. (quoting J.A. 3321, 3324). The
court acknowledged that those statements were “not
reliable enough to be dispositive,” but found they
“provide[d] helpful corroboration.” Id.
Based on the court’s claim construction and the fact
that all of the asserted claims involve the question
whether they should be limited to a repeated desmear
process, the parties stipulated to noninfringement and
the court entered judgment accordingly. On appeal,
Continental challenges only the district court’s claim
construction. We have jurisdiction under 28 U.S.C. §
1295(a)(1).
DISCUSSION
Claim construction is ultimately a question of law
that we review de novo. Teva Pharm. USA, Inc. v.
Sandoz, Inc., 135 S. Ct. 831, 841 (2015). Any
subsidiary factual findings based on extrinsic evidence
“must be reviewed for clear error on appeal.” Id. But
“when the district court reviews only evidence intrinsic

10a
to the patent (the patent claims and specifications,
along with the patent’s prosecution history), the
judge’s determination will amount solely to a
determination of law,” which we review de novo. Id.
Continental argues that the district court erred in
construing the Category 1 Terms to require that the
dielectric material be “produced by a repeated desmear
process.” 3 See Claim Construction Order, 2017 WL
3478659, at *2–3. Continental contends that the plain
language of the claims does not include a repeated
desmear process. Also, according to Continental, the
specification does not clearly and unmistakably limit
the claims to require a repeated desmear process.
Although Continental acknowledges that the
preferred embodiment discusses using a repeated
desmear process, Continental argues that it is not
proper to limit the claims to the preferred
embodiment. Continental next contends that the
expert declaration cited by the district court, which
applicants invoked to respond to indefiniteness and
written description rejections by the examiner, does
not include a clear and unmistakable disavowal for
prosecution disclaimer to attach. Finally, Continental
argues that the inventor documents cited by the
district court merely reflect the inventors practicing
We note that the specification discusses use of a “double
desmear process” while the district court construed the claims to
require a “repeated desmear process.” Compare generally ’582
patent, with Claim Construction Order, 2017 WL 3478659, at
*2–3 (emphasis added). The parties do not argue this difference
is material, and because we ultimately do not agree with the
district court that the claim limitation should have been read
into the claims, the difference in wording does not impact the
outcome. Thus, for purposes of this opinion, we assume the
terms are interchangeable.

3

11a
the preferred embodiment and thus lend no support
for the district court’s construction.
Intel responds that it was proper for the district
court to limit the claims to a repeated desmear process
because the patentees repeatedly disparaged and
disavowed the single-pass desmear process and
expressly defined “the present invention” as requiring
a repeated desmear process. Intel also argues that the
prosecution history further supports reading in this
limitation because the expert declaration submitted
during prosecution reiterated that “the claimed
invention is directed to surface roughening performed
by ‘two separate’ passes of a desmear process.”
Appellee’s Br. 29. Furthermore, Intel contends that
documents authored by the inventors demonstrate an
inability to obtain the desired levels of roughening
using a single-pass desmear process, which confirms
that their alleged invention was limited to a repeated
desmear process.
We agree with Continental that the district court
erred in limiting the claims to require a repeated
desmear process. In construing claims, district courts
give claims their ordinary and customary meaning,
which is “the meaning that the term would have to a
person of ordinary skill in the art in question at the
time of the invention.” Phillips v. AWH Corp., 415 F.3d
1303, 1312–13 (Fed. Cir. 2005) (en banc). “[B]ecause
patentees frequently use terms idiosyncratically, the
court looks to” sources including “the words of the
claims themselves, the remainder of the specification,
the prosecution history, and extrinsic evidence
concerning relevant scientific principles, the meaning
of technical terms, and the state of the art.” Id. at 1314
(quoting Innova/Pure Water, Inc. v. Safari Water

12a
Filtration Sys., Inc., 381 F.3d 1111, 1116 (Fed. Cir.
2004)).
From this list of sources, “the claims themselves
provide substantial guidance as to the meaning of
particular claim terms.” Id. However, the claims “do
not stand alone.” Id. at 1315. They are part of “‘a fully
integrated written instrument,’ consisting principally
of a specification that concludes with the claims,” and
must therefore “be read in view of the specification.”
Id. (quoting Markman v. Westview Instruments, Inc.,
52 F.3d 967, 978–79 (Fed. Cir. 1995)). Accordingly, the
specification “is always highly relevant to the claim
construction analysis. Usually, it is dispositive; it is
the single best guide to the meaning of a disputed
term.” Id. (quoting Vitronics Corp. v. Conceptronic,
Inc., 90 F.3d 1576, 1582 (Fed. Cir. 1996)).
“In addition to consulting the specification, we have
held that a court ‘should also consider the patent’s
prosecution history, if it is in evidence.’” Id. at 1317
(quoting Markman, 52 F.3d at 980). “Like the
specification, the prosecution history provides
evidence of how the [United States Patent and
Trademark Office (“PTO”)] and the inventor
understood the patent.” Id. We have cautioned,
however, that “because the prosecution history
represents an ongoing negotiation between the PTO
and the applicant, rather than the final product of that
negotiation, it often lacks the clarity of the
specification and thus is less useful for claim
construction purposes.” Id.
With these principles in mind, we turn to the
construction of the Category 1 Terms. Beginning with
the claim language, we first note that none of the

13a
asserted claims actually recite a “repeated desmear
process.” Accord Claim Construction Order, 2017 WL
3478659, at *2. Thus, at least based on the plain
language, the claims are not limited to a repeated
desmear process.
We continue our analysis by reading the claims “in
view of the specification, of which they are a part.”
Phillips, 415 F.3d at 1315 (quoting Markman, 52 F.3d
at 979). Our case law has recognized that “the
specification may reveal a special definition given to a
claim term by the patentee that differs from the
meaning it would otherwise possess.” Id. at 1316.
When the patentee acts as its own lexicographer, that
definition governs. See id. “To act as its own
lexicographer, a patentee must ‘clearly set forth a
definition of the disputed claim term’ other than its
plain and ordinary meaning.” Thorner v. Sony
Comput. Entm’t Am. LLC, 669 F.3d 1362, 1365 (Fed.
Cir. 2012) (quoting CCS Fitness, Inc. v. Brunswick
Corp., 288 F.3d 1359, 1366 (Fed. Cir. 2002)). We have
also found instances where “the specification may
reveal an intentional disclaimer, or disavowal, of claim
scope.” Phillips, 415 F.3d at 1316. In those situations,
it is again the inventor’s disavowal that is dispositive
of the claim construction. See id. “To disavow claim
scope, the specification must contain ‘expressions of
manifest exclusion or restriction, representing a clear
disavowal of claim scope.’” Retractable Techs., Inc. v.
Becton, Dickinson & Co., 653 F.3d 1296, 1306 (Fed.
Cir. 2011) (quoting Epistar Corp. v. Int’l Trade
Comm’n, 566 F.3d 1321, 1335 (Fed. Cir. 2009)).
We acknowledge the difficulty in drawing the “fine
line between construing the claims in light of the
specification and improperly importing a limitation

14a
from the specification into the claims.” Id. at 1305. To
avoid improperly importing limitations into the
claims, “it is important to keep in mind that the
purposes of the specification are to teach and enable
those of skill in the art to make and use the invention
and to provide a best mode for doing so.” Phillips, 415
F.3d at 1323.
Based on our review of the specification, none of the
statements relied upon by the district court rises to the
level of “a clear and unmistakable disclaimer.”
Thorner, 669 F.3d at 1367. The specification begins by
explaining that the invention is an “electrical device”
with teeth. See ’582 patent col. 1 ll. 13–15, col. 1 l. 50–
col. 2 l. 6. The specification then explains that “[o]ne
technique for forming the teeth,” which is “contrary to
all known teachings in the prior art” is the double
desmear process. See id. col. 5 ll. 40–44 (emphasis
added). Additionally, the disclosures provide that “the
present invention can be carried out by a new use” of a
dielectric material called Probelec XB 7081. See id. col.
6 ll. 41–48 (emphasis added). And within this context,
“[f]or example, the present invention differs from the
common desmear process in that sub-steps in the
desmear process are repeated as a way of forming the
teeth.” Id. col. 8 ll. 49–52 (emphases added). This, the
patent explains, is “[i]n stark contrast with the etch
and swell process of the known prior art.” Id. col. 9 ll.
1–2. The specification also notes that the peel strength
produced by the new use of Probelec XB 7081 is greater
than that of “the prior art, i.e., a single pass desmear
process.” See id. col. 7 ll. 3–9.
Overall, those statements simply describe how to
make the claimed invention using the preferred
Probelec XB 7081 in a “new” way that is different from

15a
the prior art process and are not statements clearly
limiting the claimed “electrical device” to require a
repeated desmear process. Heeding the warning in
Phillips to keep in mind that a goal of the specification
is to provide a best mode to make and use an invention,
phrases such as “one technique,” “can be carried out,”
and “a way” indicate that using Probelec XB 7081 is
only one method for making the invention and does not
automatically lead to finding a clear disavowal of claim
scope. See Phillips, 415 F.3d at 1323. We have also
“expressly rejected the contention that if a patent
describes only a single embodiment, the claims of the
patent must be construed as being limited to that
embodiment.” Id.; see also Liebel-Flarsheim Co. v.
Medrad, Inc., 358 F.3d 898, 906 (Fed. Cir. 2004) (“Even
when the specification describes only a single
embodiment, the claims of the patent will not be read
restrictively unless the patentee has demonstrated a
clear intention to limit the claim scope using ‘words or
expressions of manifest exclusion or restriction.’”
(quoting Teleflex, Inc. v. Ficosa N. Am. Corp., 299 F.3d
1313, 1327 (Fed. Cir. 2002))). Therefore, we conclude
that disclosing only the Probelec XB 7081
embodiment, without more, does not result in a clear
disavowal of claim scope.
Additionally, distinguishing the double desmear
process as “contrary to” or “in stark contrast” with the
single desmear process, which again appears within
the context of disclosures of the preferred embodiment,
are not clear and unmistakable limiting statements.
We have held that “[m]ere criticism of a particular
embodiment . . . is not sufficient to rise to the level of
clear disavowal.” Thorner, 669 F.3d at 1366. Thus,
comparing and contrasting the present technique to

16a
that of the prior art does not “rise to the level of [a]
clear disavowal” of claim scope. Id.
Similarly, the descriptions of “the present
invention,” which also appear within the discussion of
the preferred embodiment, are not limiting here.
While descriptions “of the ‘present invention’ as a
whole” could limit the scope of the invention, see
Verizon Servs. Corp. v. Vonage Holdings Corp., 503
F.3d 1295, 1308 (Fed. Cir. 2007), “use of the phrase
‘present invention’ or ‘this invention’ is not always so
limiting, such as where the references . . . are not
uniform, or where other portions of the intrinsic
evidence do not support applying the limitation to the
entire patent,” Absolute Software, Inc. v. Stealth
Signal, Inc., 659 F.3d 1121, 1136–37 (Fed. Cir. 2011).
In this case, the statements that “the present invention
can be carried out by a new use” of a dielectric material
called Probelec XB 7081, see ’582 patent col. 6 ll. 41–
48 (emphasis added), and “the present invention differs
from the common desmear process in that sub-steps in
the desmear process are repeated as a way of forming
the teeth,” id. col. 8 ll. 49–52 (emphases added), do not
characterize the present invention “as a whole,”
Verizon, 503 F.3d at 1308. Instead, they disclose one
way to carry out the present invention using Probelec
XB 7081, and references to “the present invention”
occur within this context.
Moreover, the use of “the present invention”
throughout the specification does not uniformly
require use of a repeated desmear process. See
Absolute Software, 659 F.3d at 1136–37. In certain
portions of the specification, such as the summary, the
invention is described with respect to its “unique
surface structure,” ’582 patent col. 1 l. 52, without any

17a
requirement that the invention must encompass the
repeated desmear process. In fact, “desmear” does not
appear in the summary of the invention section at all.
See id. col. 1 l. 48–col. 2 l. 29. In light of this, it is
difficult to say that the present invention “as a whole,”
Verizon, 503 F.3d at 1308, necessarily includes the
repeated desmear process. Thus, absent “clear and
unmistakable” language suggesting otherwise, we
conclude that the aforementioned statements do not
meet the “exacting” standard required to limit the
scope of the claims to a repeated desmear process. See
Thorner, 669 F.3d at 1366–67.
The district court also found that the prosecution
history further supported its claim construction.
Similar to disclaimers in the specification, “[t]o
operate as a disclaimer, the statement in the
prosecution history must be clear and unambiguous,
and constitute a clear disavowal of scope.” Verizon, 503
F.3d at 1306. We do not agree that such a clear
disavowal exists in this prosecution history. The
expert declaration cited by the district court, which the
applicants relied on to respond to both the
indefiniteness and the written description rejections,
explained that the written description disclosed “a
technique which forms the teeth” by “performing two
separate swell and etch steps.” J.A. 2074 ¶ 7 (citing
’582 patent col. 9 ll. 1–9) (emphasis added). The
district court found this statement “clearly describe[d]
the patented method as involving two etching
processes.” See Claim Construction Order, 2017 WL
3478659, at *6. But clearly describing a particular
claim term to overcome an indefiniteness or written
description rejection is not the same as clearly
disavowing claim scope. Moreover, the statements in
the expert declaration merely explain one technique

18a
for forming teeth and do not amount to clear
statements of disavowal. We therefore conclude that
the cited statements in the prosecution history do not
clearly and unmistakably disavow any claim scope.
Before we conclude our analysis of the intrinsic
evidence, we note that in order to read a process
limitation into a product claim, it must meet one more
criterion. Generally, “[a] novel product that meets the
criteria of patentability is not limited to the process by
which it was made.” Vanguard Prods. Corp. v. Parker
Hannifin Corp., 234 F.3d 1370, 1372–73 (Fed. Cir.
2000). “However, process steps can be treated as part
of a product claim if the patentee has made clear that
the process steps are an essential part of the claimed
invention.” Andersen Corp. v. Fiber Composites, LLC,
474 F.3d 1361, 1375 (Fed. Cir. 2007). For the same
reasons that the statements relied upon by the district
court do not show that the patentee clearly and
unmistakably disavowed claim scope, they also do not
make clear that the repeated desmear process is “an
essential part” of the claimed electrical device having
a tooth structure. Id. Far from being essential, the
statements from the intrinsic evidence merely indicate
a preference for using Probelec XB 7081 and include
comparisons with the prior art techniques. Because
the patentee has not “made clear” that the repeated
desmear process is “an essential part of the claimed
invention,” id., it was improper for the district court to
read this process limitation into the product claims for
this additional reason.
Finally, secondary to the intrinsic evidence, “we
have also authorized district courts to rely on extrinsic
evidence, which ‘consists of all evidence external to the
patent and prosecution history, including expert and

19a
inventor testimony, dictionaries, and learned
treatises.’” Phillips, 415 F.3d at 1317 (quoting
Markman, 52 F.3d at 980). But “while extrinsic
evidence ‘can shed useful light on the relevant art,’” id.
(quoting C.R. Bard, Inc. v. U.S. Surgical Corp., 388
F.3d 858, 862 (Fed. Cir. 2004)), it is “less significant
than the intrinsic record in determining the ‘legally
operative meaning of disputed claim language,’” C.R.
Bard, 388 F.3d at 862 (quoting Vanderlande Indus.
Nederland BV v. Int’l Trade Comm’n, 366 F.3d 1311,
1318 (Fed. Cir. 2004)); see also Phillips, 415 F.3d at
1317. Generally, we have viewed extrinsic evidence as
“less reliable” than intrinsic evidence. Phillips, 415
F.3d at 1318.
Here, the district court acknowledged that the
extrinsic evidence, which consisted of documents
authored by the inventors, was “not reliable enough to
be dispositive,” but “provide[d] helpful corroboration.”
See Claim Construction Order, 2017 WL 3478659, at *
6. The inventor documents state that the inventors
used “two passes through desmear,” J.A. 3321, and a
“double pass desmear” J.A. 3324, to achieve the tooth
structure. However, similar to the intrinsic evidence,
those statements reflect use of the preferred
embodiment but give the public no indication that they
have any limiting effect. Because we have already
determined that the intrinsic evidence does not
support reading a repeated desmear process into the
claims, the “less reliable” extrinsic evidence, Phillips,
415 F.3d at 1318, which even the district court
acknowledged was “not reliable enough to be
dispositive,” see Claim Construction Order, 2017 WL
3478659, at * 6, does not counsel otherwise.
Accordingly, we conclude that the Category 1 Terms
should not be limited to requiring a repeated desmear

20a
process and should be given their plain and ordinary
meaning.
CONCLUSION
For the foregoing reasons, we conclude that the
district court erred in reading a “repeated desmear
process” limitation into the Category 1 Terms. Because
the parties stipulated to noninfringement based on the
court’s erroneous construction, we vacate the
judgment of noninfringement and remand for further
proceedings.
VACATED AND REMANDED

21a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
[Filed 9/13/2017]
No. CV16-2026 PHX DGC
CONTINENTAL CIRCUITS LLC,
Plaintiff,
v.
INTEL CORPORATION, ET AL.,
Defendants.
FINAL JUDGMENT
Pursuant to and for the reasons set forth in
Continental Circuits LLC’s (“Continental Circuits”)
and Defendants Intel Corporation, Ibiden U.S.A.
Corporation, and Ibiden Co., Ltd.’s (“Defendants”)
September 7, 2017 Stipulation And Joint Motion For
Entry Of Final Judgment Of Non-Infringement And
Non-Indefiniteness (“Stipulation”) (Doc. 266).
THE COURT ENTERS FINAL JUDGMENT of:
1. non-infringement of all asserted claims of U.S.
Patent No. 7,501,582 (“the ’582 patent”), U.S. Patent
No. 8,278,560 (“the ’560 patent”), U.S. Patent No.
8,581,105 (“the ’105 patent”), and U.S. Patent No.
9,374,912 (“the ’912 patent”) (collectively the “Patentsin-Suit”) in view of the Court’s construction of the
Category 1 terms in the Claim Construction Order
(ECF No. 243); and

22a
2. non-indefiniteness under 35 U.S.C. §112, ¶ 2
with respect to the terms “a sample of the circuitry”
(claims 94, 95, and 122 of the ’582 patent); “upgrade
slope” (claims 85, 87, 89, 92, 94, 95, 100, 109, 114, and
122 of the ’582 patent); “peel strength greater than a
peel strength that would be produced by a single
desmear process” (claims 87 and 92 of the ’582 patent);
and “substantially greater cross-sectional distance
distant from the [initial] surface” (claims 14 and 19 of
the ’560 patent; and claims 13, 53, 71, 80, 82, 86, 88,
91, 95, 97, 101, and 103 of the ’105 patent).
The Court also dismisses without prejudice
Defendants’ defenses and counterclaims, except for
those concerning indefiniteness under §112, ¶ 2 with
respect to the terms listed in the preceding paragraph.
Defendants may revive any defenses and
counterclaims dismissed without prejudice in the
event of a remand.
This is a final, appealable judgment.
Dated this 12th day of September, 2017.
/s/ David G. Campbell
David G. Campbell
United States District Judge

23a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
[Filed 8/9/2017]
No. CV16-2026 PHX DGC
CONTINENTAL CIRCUITS LLC,
Plaintiff,
v.
INTEL CORPORATION, ET AL.,
Defendants.
ORDER
Plaintiff Continental Circuits LLC asserts claims
for patent infringement against Defendants Ibiden
U.S.A. Corp., Ibiden Co. Ltd., and Intel Corp. The
Court held a Markman hearing on August 4, 2017.
This order will set forth the Court’s ruling on the
issues addressed during the hearing and in the parties’
briefs.
I.

Background.

Defendant Ibiden produces layered electronic
devices at its facilities overseas. See Doc. 133, ¶¶ 51,
110. 1 These layered devices are used in computer

Page citations are to numbers placed at the top of each page by
the Court’s CM/ECF system rather than the document’s original
page numbers.

1

24a
electronics,
including
computer
processors
manufactured by Defendant Intel. See id., ¶¶ 49-51.
The devices are made of alternating layers of
conductive and non-conductive materials. See id., ¶ 29.
When adhesion between the layers is poor, the layers
can separate, creating problems for or failure of the
electronic product in which they are incorporated. See
id. In the 1990s, four employees of Continental
Circuits,
Inc.,
a
now-defunct
circuit-board
manufacturer, invented a “novel surface roughening
technique” using etching to create a “non-uniformly
roughened surface” that allows for stronger adhesion
between layers. Id., ¶¶ 28-29, 120. The four coinventors applied to patent the surface-roughening
technology in 1997, and two patents were issued in
2000 and 2004. Id., ¶¶ 12-13. Those patents are not at
issue in this case. A continuation application was filed
by early 2005, and eventually resulted in the issuance
of the four patents that are at issue here: U.S. Patent
Nos. 7,501,582 (2009), 8,278,560 (2012), 8,581,105
(2013), and 9,374,912 (2016) (collectively, the “patentsin-suit”). See id., ¶¶ 14-17, 35-36. Copies of these
patents can be found at Doc. 188-3, Exs. 1-4.
Plaintiff Continental Circuits LLC is a nonoperating entity that was formed in 2016 and owns the
patents-in-suit. Doc. 49, at 11 n.8; Doc. 133, ¶ 19. The
day after the last of the patents-in-suit was issued,
Plaintiff filed this action. See Doc. 1. Plaintiff alleges
that Defendants have infringed the patents-in-suit.
The parties have filed a joint claim construction
statement that identifies the patent terms to be
addressed in this order. Doc. 177. The statement
identifies three categories of claims to be construed,

25a
each of which includes a number of closely related
claims found in the patents. Id. It also identifies four
terms that Defendants claim are indefinite and
therefore invalid. Id. The parties have filed briefs on
claim construction. Docs. 188, 189, 199, 200. At the
Court’s request, the parties filed additional
memoranda regarding the ramifications of their claim
construction positions. Docs. 225, 230. 2
II.

Legal Standard.

A patent includes two basic components: (1) a
written description of the invention, referred to as the
“specification” of the patent, and (2) the patent claims.
The claims define the scope of the invention covered by
the patent. Phillips v. AWH Corp., 415 F.3d 1303, 1312
(Fed. Cir. 2005) (en banc). Claim construction is a
matter of law to be decided by the Court. Markman v.
Westview Instruments, Inc., 517 U.S. 370, 372 (1996).
Words of a claim are generally given the ordinary
and customary meaning the words would have for a
person of ordinary skill in the art at the time of the
invention. Phillips, 415 F.3d at 1313. “[T]he person of
ordinary skill in the art is deemed to read the claim
term not only in the context of the particular claim in
which the disputed term appears, but in the context of
the entire patent, including the specification.” Id. The
specification is also highly relevant. The Federal
Circuit has characterized it as “the single best guide to
the meaning of a disputed term.” Id. at 1315 (quotation
marks and citation omitted). A court may also consider
the patent’s prosecution history. Id. at 1317. “Like the
Some of the parties’ filings are redacted to remove trade secrets.
Unredacted versions have been filed under seal at Docs. 234-238.

2

26a
specification, the prosecution history provides
evidence of how the PTO and the inventor understood
the patent.” Id. The claims, specification, and
prosecution history are commonly referred to as
“intrinsic evidence.”
Extrinsic evidence may also be used in claim
construction. Extrinsic evidence consists of all
evidence external to the patent and prosecution
history, including expert and inventor testimony,
dictionaries, learned treatises, and other patents. Id.
Extrinsic evidence is viewed as less reliable than the
patent and its prosecution history in determining how
to read claim terms. Id. at 1318.
III.

Category 1 Terms.

Category 1 in the parties’ joint claim construction
statement concerns a number of claims in the patentsin-suit that address the etching of the dielectric or
epoxy layer of an electronic circuit board or
comparable device. Doc. 177 at 4-9. Some of the claims
simply refer to “etching the epoxy,” while others refer
to “etching the dielectric material,” “removal of a
portion of the dielectric material,” “removal of some of
the dielectric material,” “a surface of a layer of a
dielectric material,” “a surface of a dielectric material,”
and “a dielectric material comprising a surface.” Id.
Plaintiff contends that these phrases require no
construction. Defendants contend that each phrase
should be construed to include a requirement that the
etching, removal, or modification of the dielectric
material be “produced by a repeated desmear process.”
Id.

27a
As Plaintiff correctly notes, Defendants do not
contend that the actual words of the claims provide
this additional meaning. Rather, Defendants seek to
add a limitation to the claims – namely, that the
etching or alteration of the dielectric material occur
through a repeated desmear process. Because the
plain and ordinary meaning of the phrases at issue
does not include Defendants’ proposed limitation,
Defendants carry a heavy burden. The Federal Circuit
has explained that there are only two exceptions to the
rule that claims are given their plain and ordinary
meaning: “1) when a patentee sets out a definition and
acts as his own lexicographer, or 2) when the patentee
disavows the full scope of a claim term either in the
specification or during prosecution.” Thorner v. Sony
Computer Entm’t Am. LLC, 669 F.3d 1362, 1365 (Fed.
Cir. 2012). The standard Defendants must meet for
either of these exceptions is “exacting.” Id. at 1366.
“To act as its own lexicographer, a patentee must
‘clearly set forth a definition of the disputed claim
term’ other than its plain and ordinary meaning.” Id.
at 1365 (quoting CCS Fitness, Inc. v. Brunswick Corp.,
288 F.3d 1359, 1366 (Fed. Cir. 2002)). “It is not enough
for a patentee to simply disclose a single embodiment
or use a word in the same manner in all embodiments,
the patentee must ‘clearly express an intent’ to
redefine the term.” Id. (quoting Helmsderfer v. Bobrick
Washroom Equip., Inc., 527 F.3d 1379, 1381 (Fed. Cir.
2008)).
A disavowal also must be “clear and unmistakable.”
Id. at 1367. “‘Where the specification makes clear that
the invention does not include a particular feature,
that feature is deemed to be outside the reach of the
claims of the patent, even though the language of the

28a
claims, read without reference to the specification,
might be considered broad enough to encompass the
feature in question.’” Id. at 1366 (quoting SciMed Life
Sys., Inc. v. Advanced Cardiovascular Sys., Inc., 242
F.3d 1337, 1341 (Fed. Cir. 2001)). “‘The patentee may
demonstrate intent to deviate from the ordinary and
accustomed meaning of a claim term by including in
the specification expressions of manifest exclusion or
restriction, representing a clear disavowal of claim
scope.’” Id. (quoting Teleflex, Inc. v. Ficosa N. Am.
Corp., 299 F.3d 1313, 1325 (Fed. Cir. 2002)).
After careful review of the patents-in-suit, the
Court concludes that Defendants have met the
exacting standard required to adopt their proposed
limitation.
A. The Patents’ Disavowal of Prior Art.
The Federal Circuit has found disavowal when a
patent “repeatedly disparaged an embodiment as
‘antiquated,’ having ‘inherent inadequacies,’ and then
detailed the ‘deficiencies [that] make it difficult’ to
use.” See GE Lighting Solutions, LLC v. AgiLight, Inc.,
750 F.3d 1304, 1309 (Fed. Cir. 2014) (quoting Chi. Bd.
Options Exch., Inc. v. Int’l Sec. Exch., LLC, 677 F.3d
1361, 1372 (Fed. Cir. 2012)). For example, in Inpro II
Licensing, S.A.R.L. v. T-Mobile USA, Inc., 450 F.3d
1350, 1354-55 (Fed. Cir. 2006), the Federal Circuit
affirmed the construction of “host interface” as a
“direct parallel bus interface.” The court noted that the
only embodiment disclosed was a direct parallel bus
interface and that “the specification emphasizes the
importance of a parallel connection in solving the
problems of the previously used serial connection.” Id.
This discussion demonstrated “what the inventor has

29a
described as the invention.” Id. at 1355; see also
OpenWave Sys., Inc. v. Apple Inc., 808 F.3d 509, 51317 (Fed. Cir. 2015) (narrowly construing claim term
“mobile device” to exclude communication devices
containing a “computer module” based on limiting
statements in specification that disparaged prior art
communication devices containing such “computer
modules”); Fed. Retractable Techs., Inc. v. Becton,
Dickinson & Co., 653 F.3d 1296, 1305 (Fed. Cir. 2011)
(limiting scope of syringe “body” to a one-piece body
based in part on distinction of prior art syringes
composed of multiple pieces); SciMed, 242 F.3d at 1341
(finding disavowal based on disparagement of a
particular embodiment and statements that the
“present invention” does not include the embodiment).
The specification, which is common to all the
patents-in-suit, provides this introduction: “The
present invention is directed to methods for making or
manufacturing an electrical device, and the process,
composition, and product thereof. More particularly,
the present invention involves such multi-layer
electrical devices as circuit boards constructed by
joining a dielectric material to a subsequently applied
conductive material.” ’582 Patent at 1:13-18. 3 The
purpose of the invention is to improve on multi-layer
electrical devices that “suffer from delamination,
blistering, and other reliability problems. This is
particularly true when the laminates are subject to
thermal stress.” Id. at 1:30-32.

The parties’ Category 1 arguments all focus on the ’582 Patent.
The Court will focus on that patent as well. The Court’s citations
to portions of a patent throughout this order will include a column
number and line numbers, separated by a colon.

3

30a
The specification explains that the patented
invention produces a stronger bond between the
dielectric layer and the conductive layer by forming
teeth in each layer that interlock with each other. “The
surface structure is comprised of teeth that are
preferably angled or hooked like fangs or canine teeth
to enable one layer to mechanically grip a second
layer.” Id. at 1:54-57.
The specification then proceeds to explain the
process by which these teeth are formed in the
manufacturing of a multi-layer electrical device. Step
6 is the relevant step for purposes of Category 1 claims.
Step 6 “involves the etching [of] cavities, veins,
openings, or gaps in the applied dielectric material, or
more particularly an outermost surface thereof, to
accommodate the teeth.” Id. at 5:37-40. The process by
which layers of dielectric material are prepared for
boding to a conductive layer is known as a “desmear”
process. The ’582 Patent repeatedly distinguishes the
process covered by the patent from the prior art and
its use of a “single desmear process.” Five portions of
the specification are particularly relevant.
First, the specification explains that “[o]ne
technique for forming the teeth is somewhat similar to
what has been known as the swell and etch or desmear
process, except that contrary to all known
teachings in the prior art, in effect, a ‘double
desmear process’ is utilized.” Id. at 5:41-44. 4 The
description then becomes even more specific: “That is,
not merely increasing the times and temperatures and
other parameters for the desmear process, but
All bolded and italicized emphases in this order have been
added by the Court.

4

31a
instead completing the process a first time, and
then completing the process a second time.” Id. at
5:44-48. 5
Second, the patent explains that “the desmear
process as disclosed herein is contrary to the
manufacturer’s specification, i.e., a ‘double desmear
process,’ rather than the single desmear process
of the known prior art.” Id. at 5:60-63. This
statement not only equates the prior art with a “single
desmear process,” but specifically states that “the
desmear process as disclosed herein” is “contrary” to
that prior art.
Third, the specification explains:
the peel strength produced in accordance
with the present invention is greater than
the [peel] strength produced by the
desmear process of the prior art, i.e., a
single pass desmear process. For
example, if a prior art desmear process is
used to produce a 6 lb/in average peel
strength, the present invention may
produce an average peel strength on the
order of 10 lb/in or more.
Id. at 7:3-9. This statement again equates the prior art
with “a single pass desmear process,” and states that
“the present invention” produces a greater strength
than that prior art.

Plaintiff emphasizes that this description applies to “[o]ne
technique for forming the teeth,” arguing that this is only an
illustration. The Court will address this argument below.
5

32a
Fourth, the patent recommends the use of Probelec
XB 7081 for creation of the dielectric layer. The
specification contains this explanation:
Although Probelec XB 7081 apparently was
intended for use in the common desmear
(swell and etch) process as used in
conventional plated through hole plating
lines, Probelec XB 7081 can alternatively
be used in carrying out the present
invention. For example, the present
invention differs from the common
desmear process in that sub-steps in the
desmear process are repeated as a way
of forming the teeth.
Id. at 8:45-52. This language explains that although
Probelec XB 7081 was intended for the prior art
process of single desmear, it “can alternatively be used
in carrying out the present invention.” In other words,
the prior art single desmear process is not “the present
invention.” It also explains precisely how “the present
invention” differs from the prior art: “sub-steps in the
desmear process are repeated as a way of forming the
teeth.”
Fifth, the specification contains this strong
statement: “In stark contrast with the etch and swell
process of the known prior art, however, a second
pass through the process (sub-steps A through F) is
used. The second pass seems to make use of nonhomogeneities in bringing about a formation of the
teeth.” Id. at 9:1-9. This language draws a “stark
contrast” between the “known prior art” and the
current invention’s “second pass through the process.”

33a
In summary, these statements identify the “swell
and etch” or “single desmear” process as the “prior
art,” the “known prior art,” the “common desmear
process,” and “the desmear process of the prior art,”
and expressly distinguish that prior art from the
patented invention. The specification states that the
invention is “contrary to all known teachings in the
prior art” (id. at 5:43-48), is “contrary” to “the single
desmear process of the known prior art” (id. at 5:6163), “differs from the common desmear process” (id. at
8:50-52), and stands in “stark contrast” with the
“known prior art” (id. at 9:1-3). These statements are
clear and strong. They do not merely point out
deficiencies in the prior art, they state with emphasis
that this invention is different from the prior art. They
make clear that the invention does not include the
prior art’s single desmear process.
B. “The Present Invention.”
When an inventor describes “the present invention”
as including particular elements, it can be viewed as a
disavowal of a broader scope that might otherwise
apply. See Hill-Rom Servs., Inc. v. Stryker Corp., 755
F.3d 1367, 1372 (Fed. Cir. 2014) (“[W]e have held that
disclaimer applies when the patentee makes
statements such as ‘the present invention requires . . .’
or ‘the present invention is . . .’ or ‘all embodiments of
the present invention are . . .’”); see also Pacing
Technologies, LLC v. Garmin Intern., Inc., 778 F.3d
1021, 1025 (Fed. Cir. 2015).
In Honeywell Int’l, Inc. v. ITT Indus., Inc., 452 F.3d
1312, 1318 (Fed. Cir. 2006), the court addressed a “fuel
injection system component.” Although the ordinary
meaning of a “fuel injection system component” is not

34a
limited to a fuel filter, the Federal Circuit found that
the proper construction was narrower than the
customary meaning and was limited to a filter. The
court noted that the specification repeatedly described
the fuel filter as “this invention” and “the present
invention,” and held that “[t]he public is entitled to
take the patentee at his word and the word was that
the invention is a fuel filter.” Id.; see also Edwards
Lifesciences LLC v. Cook Inc., 582 F.3d 1322, 1327
(Fed. Cir. 2009) (limiting the claim term “graft” to
mean “intraluminal graft” when “the specification
frequently describes an ‘intraluminal graft’ as ‘the
present invention’ or ‘this invention’”).
As shown in the quotations above, the specification
states that “the peel strength produced in accordance
with the present invention is greater than the [peel]
strength produced by the desmear process of the prior
art, i.e., a single desmear process.” ’582 Patent at 7:36. This statement suggests “the present invention”
produces results different from the single desmear
process. The specification also states that “the
present invention differs from the common desmear
process in that sub-steps in the desmear process are
repeated as a way of forming the teeth.” Id. at 8:50-52.
This statement clearly asserts that “the present
invention” – not just the embodiment discussed in the
specification as an example – differs from the prior art
because it involves a repeat of the desmear process.
The specification further states that “the desmear
process as disclosed herein is contrary to the
manufacturer’s specifications, i.e., a ‘double desmear
process,’ rather than the single desmear process of the
known prior art.” Id. at 5:59-63. Although this
statement is addressing the specifications of the XB
7081, it also states that “the desmear process as

35a
disclosed” in the patent is a “double desmear process.”
These statements unmistakably affirm that “the
present invention” differs from the single desmear
process of the prior art.
C. Prosecution History and Other Portions of
the Patents.
As Defendants note, the examiner rejected all
pending claims during prosecution of the ‘560 Patent.
Doc. 188-3 at 155. In response, the applicants
submitted a declaration from Professor C.P. Wong,
Ph.D, which included this explanation:
As described in this paragraph, performing
two separate swell and etch steps is a
technique which forms the teeth. Although
how this occurs within the dielectric
material is not recited with in-depth detail,
I understand the specification as informing
that the teeth formation results from the
release of some solid content in the first
etching pass, forming irregular recesses and
volume displacement. By forming the
irregular releases in the first etching pass,
an opening within the dielectric material
would then be enlarged in the second etch
pass, making the structure shown in Figure
1 and recited in the claims[.]
Doc. 188-3 at 109.
This statement clearly describes the patented
method as involving two etching processes. Although
Plaintiff correctly notes that Dr. Wong refers only to “a
technique” as opposed to “the technique,” Dr. Wong
explains that the patented teeth are created by the

36a
second etching pass. This part of the prosecution
history corroborates the conclusions reached above,
even if not sufficient on its own to find disavowal.
Other portions of the patents also support the
conclusions reach above. For example, the ’582 Patent
includes claims which assert that the products
produced by the patented process are superior to
products created by “a single roughening process,” “a
single pass roughening,” or “a single desmear process.”
See, e.g., ’582 Patent at 10:25, 10:33-34, 11:4, 11:11,
11:48, 11:55, 12:2, 12:15, 12:42-43, 12:59, 14:7, 17:34,
17:38-39,18:1, 18:6, 18:36-37, 18:41-42, 19:10-11,
19:14-15, 19:26. 19:40, 19:66-67, 20:15-16. These
claims are not at issue in this case, but both sides
agreed during the Markman hearing that the
Court can consider them in this order. Their wording
confirms that the present invention is different from a
single desmear process.
Defendants also point to extrinsic evidence that
supports the Court’s conclusion. Documents produced
by the inventors state that “a two pass desmear cycle
doubles the peel strength of a one pass desmear cycle,
but varying the times in the cycle do not seem to have
that great of an effect.” Doc. 235-2, Ex. 26. The primary
inventor of the patented product, Brian McDermott,
wrote in a 1998 letter that “we use a double pass
desmear to achieve the tooth structure.” Doc. 235-3,
Ex. 30. This extrinsic evidence, although not reliable
enough to be dispositive, provides helpful
corroboration of the Court’s conclusion. Phillips, 415
F.3d at 1319 (explaining that extrinsic evidence
“may be useful to the court”).

37a
D. Plaintiff’s Arguments.
Plaintiff relies on the principle of claim
differentiation and argues that references to a repeat
desmear process are found in several independent
claims, but not in dependent claims. Doc. 189 at 16.
Plaintiff notes that “the presence of a dependent claim
that adds a particular limitation gives rise to a
presumption that the limitation in question is not
present in the independent claim.” Phillips, 415 F.3d
at 1315.
The claim differentiation presumption can be
overcome by clear indicia in the specification and
prosecution history. As the Federal Circuit has
explained, “claim differentiation is a rule of thumb
that does not trump the clear import of the
specification.” Edwards, 582 F.3d at 1332; see also
Seechange Int’l, Inc. v. C-COR, Inc., 413 F.3d 1361,
1369 (Fed. Cir. 2005) (noting that claim differentiation
is “not a hard and fast rule and will be overcome by a
contrary construction dictated by the written
description or prosecution history.”).
The Court finds, for reasons explained above, that
the specification clearly distinguishes between the
current invention and the prior art of a single desmear
process. The clear and unequivocal rejection of that
prior art overcomes any presumption raised by claim
differentiation.
Plaintiff also notes that the specification begins its
discussion of the double desmear process by describing
it as “[o]ne technique for forming the teeth[.]” ’582
Patent at 5:40-41. Although this is true, the patent
then proceeds to explain at length the difference

38a
between the current invention and the prior art single
desmear process. As already noted, in two places the
specification distinguishes this prior art from “the
present invention.” Thus, although the specification
does include a reference to “one technique,” the
subsequent, detailed explanation makes clear that the
patented invention is different from the single
desmear process.
Similarly, the words “for example” in one portion of
the specification do not suggest that the double
desmear process is only an illustration of one
embodiment of the patented invention. Id. at 8:49-50.
Rather, the language is used to explain why XB 7081,
which is normally made for a single desmear process,
“can alternatively be used in carrying out the present
invention.” Id. at 8:48-49. The specification states:
“For example, the present invention differs from the
common desmear process in that sub- steps in the
desmear process are repeated as a way of forming the
teeth.” Id. at 8:49-52. Thus, the example is not one
means by which the invention may be embodied, but
an explanation of why XB 7081 can be used with the
patented product – by repeating the desmear process
for which XB 7081 was designed.
Plaintiff notes that an early statement in the
specification refers to methods of production other
than repeated desmearing: “For example, a dielectric
material can have a non-homogeneous composition or
thickness to bring about an uneven chemical
resistance, such that slowed and/or repeated
etching will form teeth instead of the uniform etch.”
Id. at 2:27-30. Plaintiff argues that this sentence
identifies “slowed” etching as an additional method for
making the patented invention, in contrast to repeated

39a
etching. The word “slowed” does appear once in the
specification, but the Court cannot conclude that this
single word justifies a finding that the patents include
the single desmear process.
As explained above, the balance of the specification
makes clear that the single desmear process of the
prior art is not part of the invention. In fact, it is part
of the problem the invention was designed to
overcome. Defendants’ expert, Dr. Srini Raghavan,
also credibly explains in his declaration that a person
of ordinary skill in the art would not read the word
“slowed” in the context of the patents to mean that the
patents embrace single-pass desmearing. Doc. 199-3,
¶¶ 15-17. Finally, language in the specification and in
the extrinsic evidence suggests that varying the times
of a single desmear process does not produce the teeth
that are key to the invention. See ’582 Patent at 5:4347; Doc. 235-2, Ex. 26. For these reasons, the Court
cannot accept Plaintiff’s argument that the single
word “slowed” constitutes an alternative embodiment
of the patented invention. See Trustees of Columbia
University in City of New York v. Symantec Corp., 811
F.3d 1359, 1366 (Fed. Cir. 2016) (explaining that
“[t]his single sentence in the specification cannot
overcome the overwhelming evidence in other parts of
the specification”).
Finally, the Court notes that the boilerplate
disclaimer of lexicography and disavowal at the end of
the specification does not alter its conclusion. ’582
Patent at 9:18-25. The Court finds the detailed and
repeated explanation of the specification, not this
disclaimer, to be controlling.

40a
IV.

Category 2 Terms.

The parties’ second category of disputed claims
includes the following phrases from the ’560, ’105, and
’912 Patents: “Epoxy dielectric material delivered with
solid content,” “epoxy dielectric material . . . the
dielectric material delivered with solid content,”
“dielectric material delivered with solid content,”
“dielectric material that is delivered with solid
content,” and “dielectric material delivered with . . .
solid content.” Doc. 177 at 12-13. Defendants contend
that each of these phrases should be construed to mean
dielectric material “delivered with solid particles
suspended in a liquid.” Id. Plaintiff contends that no
construction is necessary. Alternatively, Plaintiff
contends that the phrases should be interpreted to
include “dielectric material having solid particles
suspended in the dielectric material.” Id. The dispute
is whether the patents require the use of liquid
dielectric material in manufacturing the multi-layer
electronic devices they cover. For several reasons, the
Court concludes that Plaintiff is correct – the patents
do not require use of a liquid dielectric material.
A. Plain and Ordinary Meaning.
As noted above, words of a claim are generally
given the ordinary and customary meaning the words
would have to a person of ordinary skill in the art at
the time of the invention. Phillips, 415 F.3d at 1313.
The Court concludes that the plain and ordinary
meaning of the words in Category 2 does not require
use of a liquid dielectric material.
The parties agree that dielectric material can be
applied either in solid or liquid form. Neither side

41a
argues that the simple phrase “dielectric material”
necessarily specifies one or the other. Given this fact,
the Court concludes that the plain and ordinary
meaning of “epoxy dielectric material delivered with
solid content” or “dielectric material delivered with
solid content” is delivery of a dielectric material the
content of which is solid. Were it not for other portions
of the patents, the Court would be inclined to conclude
that the form of dielectric material specified in the
claims is solid. This is precisely opposite the argument
made by Defendants – that the only form of dielectric
material permitted under the claims is liquid. The
plain meaning does not support Defendants’ position.
B. Specification.
The specification provides clarification. Dielectric
material is applied to the multi-layer electronic device
in Step 3 of the process described in the patents. The
specification gives this description of Step 3:
Step 3 includes applying the dielectric
material to the outermost surface of the
conductive layer (and the base if
appropriate for the circuitry or electrical
device at issue) prepared in accordance with
step 2. The dielectric material can be
applied by as [sic] a (dry film), a
(liquid) curtain coating, a (liquid)
roller coating, or an analogous
application or bonding technique.

42a
’582 Patent at 5:15-21. 6 This language explains that
the patented invention can use either dry or liquid
dielectric material. The explanation is unambiguous.
The specification goes on to provide a preferred
embodiment for the invention. It includes this
explanation:
Turning now particularly to the process for
forming the teeth and the cavities for the
teeth, the present invention can be carried
out by a new use of a CIBA-GEIGY product
known as Probelec XB 7081 as a
photoimagable
dielectric
material.
Generally, and in accordance with its
specifications sheet, Probelec XB 7081 is a
single
component,
100%
epoxy
photodielectric
material
especially
developed for . . . multi-layer boards.
Id. at 6:41-48.
As is clear from this language, the use of XB 7081
is a preferred embodiment, an illustration. The
specification says only that the patent “can be carried
out” by using this product, which is a liquid, not that
it must be carried out in this manner. Later portions
of the specification continue discussion of this
preferred embodiment. When the specification
describes the method for applying the dielectric

Some sentences in the specification include numbers that refer
to specific components of the figures shown at the beginning of
the specification. Quotations throughout this order omit those
numbers.

6

43a
material, it again uses XB 7081 as an illustration. Id.
at 7:15-37.
“[I]t is improper to read limitations from a
preferred embodiment described in the specification –
even if it is the only embodiment – into the claims
absent a clear indication in the intrinsic record that
the patentee intended the claims to be so limited.”
Liebel-Flarsheim Co. v. Medrad, Inc., 358 F.3d 898,
913 (Fed. Cir. 2004). Unlike the Category 1 phrases
discussed above, where the specification clearly
distinguishes the invention from the prior art single
desmear process, the specification and other intrinsic
evidence contain no clear indication that the dielectric
material to be used in the patented process must be
liquid. Nor does the specification describe “the present
invention” as not including solid forms of dielectric
material. For a court to find that a specification has
disclaimed a particular possible interpretation of the
claims, “there must be a clear and unmistakable
disclaimer.” Thorner, 669 F.3d at 1366-67; see also
Pacing Techs., 778 F.3d at 1024. The patents’
preferred embodiment of XB 7081 does not constitute
a clear and unmistakable disclaimer of a solid
dielectric material.
C. Prosecution History.
Defendants look to the prosecution history to
support their argument that the dielectric material
must be applied in liquid form. Doc. 188 at 14-15. But
the legal standard for finding a prosecution history
disclaimer requires “a clear and unmistakable
disavowal of scope during prosecution.” Purdue
Pharma L.P. v. Endo Pharm. Inc., 438 F.3d 1123, 1136
(Fed. Cir. 2006). Ambiguous statements in the

44a
prosecution history will not support a finding of
disclaimer. SanDisk Corp. v. Memorex Prods., Inc., 415
F.3d 1278, 1287 (Fed. Cir. 2005) (“There is no ‘clear
and unmistakable’ disclaimer if a prosecution
argument is subject to more than one reasonable
interpretation, one of which is consistent with a
proffered meaning of the disputed term.”); see also LG
Elecs., Inc. v. Bizcom Elecs., Inc., 453 F.3d 1364, 137374 (Fed. Cir. 2006) (finding that prosecution history
statements were not sufficiently clear to justify
limiting claims), reversed on other grounds by Quanta
v. LG Elecs., 128 S. Ct. 2109 (2008).
Defendants note that the examiner for the ’560
Patent rejected a number of claims because “[i]t is not
clear as to what is meant by a dielectric material being
delivered with solid content and it is also unclear as to
how epoxy uses non-homogeneity with the solid
content.” Doc. 183 at 158. The applicants responded
with a document submitted on June 25, 2012. Doc.
188-3 at 96-109. The document attached a declaration
by Dr. Wong. Id. at 107-109. The relevant portions of
the document provide this explanation:
Dr. Wong testifies that, from the identified
passages of the specification of the subject
application, one of ordinary skill would
understand that the specification disclosed
the use of a generally liquid epoxy nonhomogeneous dielectric, specifically as
noted by the Examiner in the Action
Sentence bridging [pages] 3 and 4. As noted
by Dr. Wong, by describing the epoxy as
having a solid content of 58%, one skilled in
the art would understand that Probelec XB

45a
7081 includes solid particles suspended in a
generally liquid epoxy.
***
As discussed above, the specification
describes the use of a “dielectric material”
with “non-homogeneous composition . . . to
bring out uneven chemical resistance, such
that slowed and/or repeated etching will
form teeth instead of a uniform etch.” The
operation of this aspect of the process of the
present application is explained in the
Declaration, Paragraph 7. In addition, the
Specification describes the use of an epoxy,
e.g., Probelec XB 7081, having “a solid
content of 58%.” By describing the epoxy as
having a solid content of 58%, one skilled in
the art would understand that Probelec XB
7081 includes solid particles in a percentage
of 58% suspended in a generally liquid epoxy
and that utilization of an epoxy “delivered
with solid content” similar to Probelec as the
applied dielectric material.
Id. at 103-104. Defendants also emphasize this
paragraph from Dr. Wong’s attached declaration:
I have been asked to comment on the
question of disclosure in the original
specification for the claim language
requiring an epoxy dielectric material
delivered with solid content . . . . A
particular example of this epoxy having
solid content is disclosed as Probelec XB

46a
7081 as described in paragraphs (00510065). Paragraphs (0051 to 0060) describe
the various properties of this epoxy
material. In paragraph (0056), McDermott
discloses a “solid content of 58%.” By
describing this epoxy as having a solid
content of 58%, I understand that Probelec
XB 7081 includes solid particles suspended
in a generally liquid epoxy.
Id. at 108.
Defendants contend that this language amounts to
a disclaimer of solid dielectric material for the
patented process. The Court does not agree.
Portions of the quoted language simply describe XB
7081, the product used in the specification’s preferred
embodiment. These portions state that XB 7081
includes solid particles suspended in a generally liquid
epoxy. Such a description of a product used in a
preferred embodiment does not constitute a disclaimer
of all other possible forms of dielectric material.
Other portions of the quoted language refer to
epoxy “having a solid content of 58%,” and state that
one skilled in the art would understand this to mean a
liquid containing solid particles. But the reference to
58% does not appear in any of the Category 2 claims to
be construed – they all refer to dielectric material
“delivered with solid content.” The fact that dielectric
material “having a solid content of 58%” suggests a
liquid with 58% solid particles, as the statements from
the prosecution history say, does not mean that the
phrase “delivered with solid content,” standing alone,

47a
also means a liquid. At most, the statements are
ambiguous.
The prosecution history does not clearly and
unmistakably disavow use of solid dielectric materials.
Purdue, 438 F.3d at 1136. As a result, the Court cannot
rely on the prosecution history as a basis for
concluding that solid dielectric materials are excluded
from the patent. To the contrary, the specification
expressly states that a dry film dielectric material may
be used.
V.

Category 3.

The parties’ third category of claim terms are
“means-plus-function limitations.” Doc. 177 at 2-3. The
relevant statute provides that “[a]n element in a claim
for a combination may be expressed as a means or a
step for performing a specified function without the
recital of structure, material, or acts in support
thereof, and such claim shall be construed to cover
the corresponding structure, material, or acts
described in the specification and equivalents
thereof.” 35 U.S.C. § 112(f). When this statute applies
to a claim, the claim is construed by identifying the
“function” associated with the plain language, and
then identifying the corresponding “structure” in the
specification that is associated with that function.
The parties have identified three claim terms
requiring construction, and agree that each of these
terms constitutes a means-plus-function limitation.
The parties also agree on the function for each term.
The Court’s task, therefore, is to find the
corresponding “structure” in the specification for each
function.

48a
The first limitation, found in the ’582 Patent, is
“means for joining the conductive layer to the dielectric
material.” Doc. 177 at 15. The parties agree that this
claim has the following function: “joining the
conductive layer to the dielectric material.” Id.
The second claim also comes from the ’582 Patent
and reads: “means for mechanically gripping a
conductive layer to the surface of the dielectric
material so that the conductive layer is burrowed in
and under the top surface of the dielectric material.”
Id. The parties agree on the following function for this
claim: “mechanically gripping a conductive layer to the
surface of the dielectric material so that the conductive
layer is burrowed in and under the top surface of the
dielectric material.” Id.
The third term comes from the ’105 Patent and
reads: “means for interlocking a conductor part of the
circuitry configured for filling cavities with an epoxy
dielectric material disposed in combination with the
circuitry and coupled with the conductor part.” Id. at
116. The parties agree on this function: “interlocking a
conductor part of the circuitry configured for filling
cavities with an epoxy dielectric material disposed in
combination with the circuitry and coupled with the
conductor part.” Id.
The parties disagree on the structure that should
correspond to each claim. With respect to the first
claim, Plaintiff asserts that the structure should be
Figure 1 of the ’582 Patent, together with the following
statement from the specification: “It could also be said
that the layers joined in a saw-toothed manner, i.e.,
teeth made of both materials in an interlocking bite.”
Defendants, on the other hand, contend that the

49a
structure should include seven paragraphs from the
’582 Patent specification – paragraphs that discuss the
connection between the dielectric material and the
conductive layer in considerable detail. These
paragraphs include a discussion of teeth, a sawtoothed description of the teeth, a triangular shape
description of the teeth, canine or fang-shaped teeth,
and preferable sizes and frequencies for the teeth. ’582
Patent at 3:18 to 4:11.
With respect to the second claim term, Plaintiff
contends that the corresponding structure consists of
Figure 1 and the following statement:
However, the preferred embodiment utilizes
a surface of obtuse, canine, or fang-shaped
teeth to help the conductive coating hook
under the exterior surface of the applied
dielectric material to mechanically grip the
applied dielectric material. The obtuse,
canine, or fang-shaped teeth are in contrast
to the shallower, more rounded surface
typically produced by known roughening
techniques. Note in FIG. 2 that roughening
techniques can produce some occasional
gouging but nothing on the order of the
present invention.
’582 Patent at 3:42-51. Defendants propose the same
seven-paragraph structure that they advocate with
respect to the first claim.
For the third claim, which is found in the ’105
Patent, Plaintiff proposes that the structure include
Figure 1 and the following language from the
specification:

50a
The invention can be carried by forming
cavities in the applied dielectric material for
receiving the teeth, and then forming the
teeth from the conductive coating and metal
layer formed thereon. Generally, the teeth
can be of any triangular shape (e.g.,
equilateral, isosceles, scalene, right, obtuse,
or any combination thereof). Preferably,
though, the teeth are obtuse so as to hook or
angle under the exterior surface of the
applied dielectric material.
’105 Patent at 3:40-47. Defendants propose the same
seven-paragraph structure that they propose for the
other claims. Id. at 3:26-4:29.
The Federal Circuit has instructed “that
corresponding structure must include all structure
that actually performs the recited function.” Cardiac
Pacemakers, Inc. v. St. Jude Medical, Inc., 296 F.3d
1106, 1119 (Fed. Cir. 2002); see also Callicrate v.
Wadsworth Mfg., Inc., 427 F.3d 1361, 1369 (Fed. Cir.
2005) (holding that it was error for the district court to
limit the corresponding structure to the preferred
embodiment and not include “all structure in the
specification corresponding to the claimed function”).
In light of this guidance, the Court concludes that
Plaintiff’s proposed structures are too narrow.
Although they include some discussion of the means
by which the conductive and dielectric layers adhere to
each other, those discussions do not include “all
structure” described in the specification “that actually
performs the recited function.” Cardiac Pacemakers,
296 F.3d at 1119. The Court also disagrees with
Plaintiff’s suggestion that the words “joining,”
“mechanically gripping,” and “interlocking” have

51a
different meanings. These terms are not defined in the
patents. Each is used to describe the means by which
the layers adhere to each other. And, as Defendants
note, these terms are used interchangeably in some
parts of the specification. See, e.g., ’582 Patent at 1:5057, 3:21- 23.
The seven paragraphs identified by Defendants
describe the structure by which the dielectric material
adheres to the conductive layer in more detail, but
even they leave out some structure, and the Court has
difficulty understanding how these technical and
lengthy paragraphs could be used by a jury to
determine whether the accused products infringe.
Indeed, both sides acknowledged during the Markman
hearing that it would be best to prepare for the jury a
short and clear description of the structure that
corresponds to the functions identified above.
The disagreement between the parties seems to be
over which portions of the structure discussed in the
specification must be present for a product to infringe.
Plaintiff contends that the presence in the accused
product of any part of the structure will be sufficient.
Defendants argue that at least four different
components of the structure must be present before
infringement is found. Defendants identify these
components by looking to parts of the specification
that are not included in their seven paragraphs of
proposed structure.
The Court concludes that the parties’ Markman
briefs do not provide a sufficient discussion of the law
or the specification for the Court to resolve this
disagreement. As a result, the Court will require the
parties to do the following:

52a
1.

Develop an agreed-upon description of each
element of structure found in the specification
that relates to the adhering function of these
claims. This can include separate paragraphs
for each element (tooth shape, frequency, size,
etc.) or a narrative description of the entire
structure. It should be in language suitable for
a jury instruction.

2.

Brief two questions: (1) As a legal matter, how
many elements of a structure must be present
in an accused product for a finding of
infringement? (2) How does that law apply to
these patents – what elements of structure
disclosed in the specification must be present for
an accused product to infringe in this case?

3.

The parties shall confer and, within 10 days of
this order, propose a schedule for completing
these tasks, including page limitations.

VI.

Indefiniteness.

The relevant statute provides that “[t]he
specification shall conclude with one or more claims
particularly pointing out and distinctly
claiming the subject matter which the applicant
regards as his invention.” 35 U.S.C. § 112(b). This
requirement ensures that a patentee adequately
notifies the public of the scope of his or her invention.
“A patent is invalid for indefiniteness if its claims, read
in light of the specification delineating the patent, and
the prosecution history, fail to inform, with reasonable
certainty, those skilled in the art about the scope of the
invention.” Nautilus v. Biosig Instruments, Inc., 134 S.
Ct. 2120, 2123 (2014). At the same time, however,

53a
“absolute precision is unattainable.” Id. Courts
therefore “must take into account the inherent
limitations of language” and allow a “modicom of
uncertainty” so as to provide appropriate incentives for
innovation. Id. at 2128. Because an indefinite claim is
an invalid claim, an accused infringer must prove
indefiniteness clearly and convincingly. Bancorp
Servs., LLC v. Hartford Life Ins. Co., 359 F.3d 1367,
1371 (Fed. Cir. 2004).
A. “A Sample of the Circuitry.”
Claims in the ’582 Patent require that “a sample of
the circuitry” have a frequency of teeth sufficient to
provide at least 5,000 teeth per linear inch. ’582
Patent, Claims 94, 95, 122. Defendant contends that
the phrase “a sample of the circuitry” is indefinite
because it does not provide enough precision for a
person skilled in the art to determine the scope of the
invention with reasonable certainty. See Nautilus, 134
S. Ct. at 2129. The Court does not agree.
The specification begins by identifying the location
of the teeth that are critical to the patent. Figure 1 is
a magnified photograph of the interface between a
conductive layer and a dielectric layer in a device made
according to the patent, and clearly illustrates the
teeth of the two layers that interlock with each other.
Figure 2 is a magnified photograph of the same
interface in a device made by the prior art. The
boundary between the two layers is much smoother
and lacks the cavities and teeth illustrated in Figure
1. The specification then provides this explanation:
FIG. 1 is an illustration of a conductive
coating and metal layer on the applied

54a
dielectric material with a desirable tooth
structure. In contrast, FIG. 2 is an
illustration of a prior art conductive coating
and metal layer on the applied dielectric
material with the surface produced by
roughening processes. . . . Compare FIG. 1
and FIG. 2, and note particularly the size,
shape, frequency, and depth of the teeth in
FIG. 1 with the surface produced by
roughening in FIG. 2.
’582 Patent at 3:8-17.
The specification proceeds to explain the nature of
the teeth called for by the patents:
As to frequency, the teeth should be quite
frequent in number; at least about 5,000
teeth per linear inch, and preferably about
10,000 per linear inch; and even better is at
least about 15,000 teeth per linear inch.
As to surface area, there should be at least
about 25,000 teeth per square inch, better
still is essentially at least about 100,000 per
square inch, and preferably at least about
200,000 per square inch, or even greater.
Id. at 3:62 to 4:2
Having described this tooth frequency, the
specification explains:
It should be recognized that the teeth
generally are not formed to a precise
dimension. As shown in FIG. 1, some of the
teeth are somewhat differently sized,

55a
angled, and proportioned. Thus, a
representative sample of the electrical
device should have teeth in about these
ranges.
Having at least about 20% of the teeth in one
or more of these ranges, and preferably
about 50% is a preferred balance of
mechanical grip without a weakening [of]
the integrity of the layer, particularly in
combination.
Id. at 4:3-11.
Several points are apparent from this quoted
language. First, the teeth are located at the interface
between the dielectric material and the conductive
layer. Second, the frequency of the teeth should be at
least 5,000 per linear inch and 25,000 per square inch.
Although Defendants protest that they don’t know
where these teeth are located, Figure 1 and this
language makes clear that they are located in the
interface between the two layers. Third, the
specification states that “a representative sample of
the electrical device should have teeth in about these
ranges.” Id. at 4:6-7.
In light of this specification, claims in the ’582
Patent are not indefinite. Claim 94 states that the
patented device includes “a conductive layer of
material built up on a surface on a layer of dielectric
materials, the layers joined in a saw-tooth manner
made of both materials in an interlocking bite.” Id. at
18:14-17. The claim then states: “[T]he conductive
layer is a portion of circuitry of an electrical device, the
conductive layer is comprised of teeth such that a

56a
sample of the circuitry has a frequency of the teeth
sufficient to provide at least 5,000 of the teeth per
linear inch.” Id. at 18:18-22. According to this
language, the conductive layer is a portion of the
circuitry, and a sample of the circuitry – the conductive
layer – should show a frequency of teeth sufficient to
provide at least 5,000 teeth per linear inch. In light of
the specification’s suggestion that the samples should
be “representative,” and its unambiguous explanation
that the location of the teeth and the area to be
sampled is the interface between the dielectric and
conductive layers, the Court concludes that a person
reasonably skilled in the art could determine how to
obtain such a sample.
Defendants argue that the size and location of the
sample are not specified in the claim. True, but the size
clearly must be large enough to show “a frequency of
the teeth sufficient to provide at least 5,000 of the
teeth per linear inch,” and, according to the
specification, should be a “representative sample.” The
parties may disagree on how big that sample ought to
be, but the Court cannot conclude that such
disagreement makes this claim indefinite. Persons of
ordinary skill in the art would understand a sample
size large enough to be representative of the interface
as a whole.
The Court disagrees with Defendants’ argument
that the location of the sample is unknown, or that the
sample might even be taken from locations in the
electronic device other than the interface between the
dielectric material and the conductive layer. Reading
the specification leaves no doubt as to the meaning of
the claim: the interface is the location of the teeth to
be sampled, and the teeth in the interface must be

57a
shown by sampling to have a frequency of at least
5,000 per linear inch.
B. “Upgrade Slope.”
Claims in the ’582 Patent call for the formation of
cavities in the dielectric material “wherein at least one
of the cavities includes an upgrade slope with respect
to the dielectric material, and one of the teeth engages
a portion of the dielectric material at the slope.” ’582
Patent at 17:58-61. Defendants claim that the phrase
“upgrade slope” is indefinite because a person of
ordinary skill could not distinguish when a slope is
“upgrade” as opposed to “downgrade,” or where the
slope is located. Plaintiff responds that the slope,
according to the language of each claim at issue, calls
for “an upgrade slope with respect to the surface of
the dielectric material.” See, e.g., ’582 Patent,
Claims 89, 94. Plaintiff argues that this language
shows that “upgrade slope” describes the orientation of
cavity walls in relation to the surface of the dielectric
material. Doc. 200 at 15.
The specification includes this explanation:
A further way of articulating the “teeth”
concept is to view each tooth as being
substantially triangular in shape, with the
base of the triangle being a plain of the
dielectric material before it is etched, or
more precisely by the exterior surface
thereof. The invention can be carried out by
forming cavities in the applied dielectric
material for receiving the teeth, and then
forming the teeth from the conductive
coating and then a layer formed thereon.

58a
Generally, the teeth can be of any triangular
shape, e.g., equilateral, isosceles, scalene,
right, obtuse, or any combination thereof”.
Preferably, though, the teeth are obtuse so
as to hook or angle under the exterior
surface of the applied dielectric material.
The use of any shape of teeth increases the
surface area where the conductive coating is
on the applied dielectric material. However,
the preferred embodiment uses a surface of
obtuse, canine, or fang-shaped teeth to help
the conductive coating and metal layer hook
under the exterior surface of the applied
dielectric material.
’582 Patent at 3:28-46.
With this explanation from the specification, the
Court concludes that a person of ordinary skill in the
industry could understand with reasonable certainty
the meaning of the claim at issue: A dielectric material
comprising a surface with cavities “wherein at least
one of the cavities includes an upgrade slope with
respect to the surface of the dielectric material, and
one of the teeth engages a portion of the dielectric
material at the slope.” The cavities formed in the
dielectric material must have sloped sides, relative to
the flat surface of the dielectric material, and the teeth
formed from the conductive layer must engage a
portion of the dielectric material at the sloped side of
the cavity.
As Plaintiff’s counsel conceded at the Markman
hearing, this terminology does not specify any specific
slope or angle, and, as a result, every cavity, no matter
how small or shallow, would have sides that are sloped

59a
relative to the surface of the dielectric material and
therefore satisfy this claim requirement. Indeed, even
the undulating surface of the prior art as illustrated in
Plaintiff’s opening brief (Doc. 189 at 9, lines 13-15)
would appear to satisfy this description. As a result,
the Court cannot see how this claim language
distinguishes the patented invention from the prior
art, but that is not a question of definiteness.
C. “Peel Strength Greater Than.”
Defendants challenge the ’582 Patent claims that
call for “peel strength greater than a peel strength that
would be produced by a single desmear process.” Doc.
177 at 18. Defendants agree that “peel strength” is a
term of art that generally refers to the adhesive
strength that exists between two layers. Doc. 188 at
25. Defendants argue, however, that this claim
language specifies no method for measuring peel
strength and no criteria for determining the peel
strength of a product produced by a single desmear
process, and therefore leaves a person of ordinary skill
in the art with no basis to determine what
measurement is intended.
Plaintiff asserts with some persuasive force that
IPC-TM-650, method 2.4.8, is the standardized
method for measuring peel strength by one skilled in
the art. Doc. 200-3 at ¶ 30. But Plaintiff also argues
that any scientifically reasonable method for
measuring peel strength could be used, the only
requirement being that it show a peel strength in the
product made under the patent that is greater than the
peel strength of a product made by a single desmear
process.

60a
The Court agrees with Plaintiff. Defendants do not
contend that the word “greater” is indefinite. And the
fact that a particular method of measuring peel
strength is not identified does not make the language
indefinite. Those skilled in the art know the accepted
means for measuring peel strength. Nor is the claim
indefinite because the baseline peel strength of a
product made with a single desmear process is not
specified. No particular peel strength is required; it
just must be lower, upon measurement, than the peel
strength of the patented product measured by the
same method. Persons skilled in the art know how to
conduct such measurements and how to locate a
product made by a single desmear process.
D. “Substantially Greater.”
Claims 14 and 19 of the ’560 Patent and several
claims in the ’105 Patent call for cavities in the
dielectric layer having “a first cross-sectional distance
proximate the [initial] surface” and a “substantially
greater cross-sectional distance distant from the
[initial] surface.” Doc. 177 at 19. Defendants contend
that the intrinsic record is devoid of any objective
criteria for determining how much greater is
“substantially greater” within the meaning of the
claims, and that these limitations therefore are
indefinite. Defendants note that the ’912 Patent does
not include the word “substantially,” calling simply for
a “greater cross-sectional distance.” As a result,
Defendants argue, “substantially” must have some
meaning beyond “greater,” a meaning not apparent
from the intrinsic evidence.
Plaintiff notes that the Federal Circuit has
“repeatedly confirmed that relative terms such as

61a
‘substantially’ do not render patent claims so unclear
as to prevent a person of skill in the art from
ascertaining the scope of the claim.” Deere & Co. v.
Bush Hog, LLC, 703 F.3d 1349, 1359 (Fed. Cir. 2012).
Plaintiff agrees, however, on the relevant test: “Such a
term is not indefinite if the intrinsic evidence provides
‘a general guideline and examples sufficient to enable
a person of ordinary skill in the art to determine [the
scope of the claims].’” Enzo Biochem, Inc. v. Applera
Corp., 599 F.3d 1325, 1335 (Fed. Cir. 2010) (citation
omitted).
Plaintiff points to the following language from the
specification as providing guidance on the meaning of
“substantially”:
In comparison with the above-mentioned
roughening techniques of the prior art, it is
believed that a surface of the teeth is an
improvement in that there is an increase in
surface area. However, it is still better to use
teeth that are fang-shaped to enable a
mechanical grip that functions in a different
manner than adherence by means of
increased surface area. By using the fanged,
angled, canine, or otherwise hooked teeth
(in addition to increased surface area), there
is a multidirectional, three dimensional
interlacing and overlapping of layers.
’582 Patent at 1:58-66. Plaintiff also points to language
in the specification stating that “the . . . metal layer is
actually burrowed under the dielectric material and
vice versa.” Id. at 1:66 to 2:3.

62a
Plaintiff’s expert, Dr. Hoffman, provides this
explanation of why this description is sufficient for one
skilled in the art to understand the meaning of
“substantially”:
In light of the specification and the art, a
person of ordinary skill would understand
that the cross-sectional distance of the
interior of a cavity must exceed a
crosssectional distance nearer the opening
of a cavity enough to create the “mechanical
grip” described in the patents and allow the
conductive material to burrow “in and
under” the dielectric material. See, e.g., ’582
Patent at 1:58-2:3.
A person of ordinary skill in the art would
recognize that if the cross-sectional distance
of the interior of the cavity only exceeds the
cross- sectional distance of the opening by a
very slight amount, the mechanical grip
disclosed in the patents would not be
achieved.
A person of ordinary skill in the art would
further understand that the specific
difference between comparative crosssectional distances may vary based on
particular
application
and
material
properties. For example, a person having
ordinary skill in the art would understand
that materials having high tensile strength
will more readily grip copper, meaning that
the degree of undercutting and burrowing
(that is to say the amount which the crosssectional distance distant the surface is

63a
greater than the distance proximate the
surface) can be lesser than a material with
lower tensile strength.
Doc. 200-3 at ¶¶ 35-37.
As noted above, the Supreme Court recently held
that “a patent’s claims, viewed in light of the
specification and prosecution history, [must] inform
those skilled in the art about the scope of the invention
with reasonable certainty.” Nautilus, Inc., 134 S. Ct.
at 2129. After Nautilis, the Federal Circuit explained
that “[t]he claims, when read in light of the
specification and the prosecution history, must
provide objective boundaries for those of skill in the
art.” Interval Licensing LLC v. AOL, Inc., 766 F.3d
1364, 1371 (Fed. Cir. 2014). The Federal Circuit also
explained that “[w]hen a ‘word of degree’ is used, the
court must determine whether the patent provides
‘some standard for measuring that degree.’”
Biosig inst., Inc. v. Nautilis, Inc., 783 F.3d 1374, 1378
(Fed. Cir. 2015) (quoting Enzo Biochem, 599 F.3d at
1332).
Although it is a close question, the Court concludes
that the patents satisfy this standard. Language from
the specification quoted above explains that the
cavities should extend under the surface of the
dielectric material (“actually burrowed under the
dielectric material”) so that the teeth that fill the
cavities “mechanical[ly] grip” the dielectric material.
’582 Patent at 1:58 to 2:3. This suggests that the base
of the cavity should not be perfectly aligned with the
surface of cavity, the sides of the cavity forming a
perpendicular wall, but instead should be sufficiently
offset from the surface opening to permit the tooth to

64a
engage the dielectric material in a mechanical grip.
The Court concludes that one skilled in the art could
determine the extent to which the cavity must extend
under the dielectric material to permit such a
mechanical grip. The claims provide additional
guidance by stating that the peel strength formed by
these gripping teeth must exceed the peel strength of
a layer created by a single-pass desmear process. And
Figure 1 provides further explanation, illustrating the
kinds of cavities and teeth intended by the patent.
Admittedly, this language requires some judgment
by persons skilled in the art, but it is judgment
informed by the intended function of the cavities (to
create a mechanical grip), the result that should be
realized (peel strength greater than single-pass
desmearing creates), and the illustration in Figure 1.
As the Federal Circuit explained after Nautilis,
“absolute or mathematical precision is not required.”
Interval Leasing, 766 F.3d at 1370. The Federal
Circuit also favorably cited its previous holding that
the phrase “not interfering substantially” was not
indefinite even though the construction “define[d] the
term without reference to a precise numerical
measurement.” Enzo Biochem, 599 F.3d at 1335.
E. Indefiniteness Conclusion.
With respect to the claims in Category 4, the Court
concludes that Defendants have not satisfied their
“clear and convincing” burden of showing that the
claims are indefinite.
Dated this 9th day of August, 2017.

65a
/s/ David G. Campbell
David G. Campbell
United States District Judge

66a
APPENDIX D
NOTE: This order is nonprecedential.
UNITED STATES COURT OF APPEALS FOR THE
FEDERAL CIRCUIT
[Filed 6/14/2019]
CONTINENTAL CIRCUITS LLC,
Plaintiff-Appellant
v.
INTEL CORPORATION, IBIDEN U.S.A.
CORPORATION, IBIDEN COMPANY LIMITED,
Defendants-Appellees
2018-1076
Appeal from the United States District Court for the
District of Arizona in No. 2:16-cv-02026-DGC, Judge
David G. Campbell.
ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
Before PROST, Chief Judge, NEWMAN, LOURIE,
LINN *, DYK, MOORE, O’MALLEY, REYNA,
WALLACH, TARANTO, CHEN, HUGHES, and
STOLL, Circuit Judges.
PER CURIAM.

Circuit Judge Linn participated only in the decision on the
petition for panel rehearing.

*

67a
ORDER
Appellees Intel Corporation, Ibiden U.S.A.
Corporation and Ibiden Company Limited filed a
combined petition for panel rehearing and rehearing
en banc. A response to the petition was invited by the
court and filed by Appellant Continental Circuits LLC.
The petition was referred to the panel that heard the
appeal, and thereafter the petition for rehearing en
banc was referred to the circuit judges who are in
regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on June 21,
2019.
FOR THE COURT
June 14, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

68a
APPENDIX E
US0075O1582B2
(12)

United States Patent
McDermott et al.

(10)
(45)

Patent No.: US 7,501,582 B2
Date of Patent: Mar. 10, 2009

(54)

ELECTRICAL DEVICE AND METHOD
FOR MAKING SAME

(75)

Inventors: Brian J. McDermott, Winter
Springs, FL (US); Daniel McGowan,
Casselberry, FL (US); Ralph Leo Spotts, Jr.,
Lake Mary, FL (US); Sid Tryzbiak, Winter
Springs, FL (US)

(73)

Assignee: Peter K. Trzyna, Esq., Chicago, IL
(US)

(*)

Notice: Subject to any disclaimer, the term of
this patent is extended or adjusted under 35
U.S.C. 154(b) by 98 days.

(21)

Appl. No.: 10/790,363

(22)

Filed: Mar. 1, 2004

(65)

Prior Publication Data

US 2004/0163847 A1

Aug. 26, 2004

Related U.S. Application Data

69a
(63)

Continuation of application No. 09/694,099,
filed on Oct. 20, 2000, now Pat. No. 6,700,069,
and a continuation of application No.
08/905,619, filed on Aug. 4, 1997, now Pat. No.
6,141,870.

(51)

Int. Cl.
H05K 1/03 (2006.01)

(52)

U.S. Cl. ..................... 174/255; 174/256; 174/257

(58)

Field of Classification Search …. 174/255–
262; 29/850–853; 216/15-16

See application file for complete search history.
(56)

References Cited

U.S. PATENT DOCUMENTS
5,158,827 A * 10/1992 Katagiri et al. ............. 428/332
5,517,758. A * 5/1996 Nakamura ..................... 29/852
* cited by examiner
Primary Examiner—Tuan T. Dinh
(57)

ABSTRACT

A multilayer electrical device, such as a printed circuit
board, having a tooth structure including a metal layer
set in a dielectric. The device includes a base; a
conductive layer adjacent to the base; a dielectric
material adjacent to conductive layer, a tooth
structure including a metal layer set in the dielectric
material to join the dielectric material to the metal
layer; and wherein the metal layer forms a portion of

70a
circuitry in a circuit board having multiple layers of
circuitry.
162 Claims, 2 Drawing Sheets
(1 of 2 Drawing Sheet(s) Filed in Color)

71a
FIG. 1

FIG. 2 PRIOR ART

72a
FIG. 3

FIG. 4

FIG. 5

FIG. 6

73a
FIG. 7

FIG. 8

FIG. 9

FIG. 10

FIG. 11

74a
ELECTRICAL DEVICE AND METHOD FOR
MAKING SAME
This patent application is a continuation
application that claims priority, and incorporates by
reference, from U.S. patent application Ser. No.
08/905,619, now U.S. Pat. No. 6,141,870, filed Aug. 4,
1997, and U.S. patent application Ser. No. 09/604,099,
filed Oct. 20, 2000, issuing Mar. 2, 2004, as U.S. Pat.
No. 6,700,069.
I. FIELD OF THE INVENTION
The present invention is directed to methods for
making or manufacturing an electrical device, and the
process, composition, and product thereof. More
particularly, the present invention involves such
multilayer electrical devices as circuit boards
constructed by joining a dielectric material to a
subsequently applied conductive material. Still more
particularly, the present invention involves an
electrical device having a substrate or base, an applied
dielectric material thereon, which in turn has a thin
conductive coating thereon, and a conductive layer
formed upon the conductive coating, the conductive
layer being joined to the applied dielectric material in
an improved manner.
II. BACKGROUND OF THE INVENTION
Multilayer electrical devices—those made from
layering a dielectric material and a conductive
material on a base—suffer from delamination,
blistering, and other reliability problems. This is
particularly true when the laminates are subjected to
thermal stress.

75a
Known attempts to solve these problems seem to
have focused on physical or chemical roughening,
particularly of the base or substrate. See for example,
U.S. Pat. No. 4,948, 707. Although oxide-related
chemical roughening processes have been used, an
emphasis on physical roughening may reflect the use
of materials that are relatively chemically resistant.
Both physical and chemical roughening approaches
have improved adherence to the base.
However, the extent to which this adherence can be
increased by roughening has its limits. And despite a
long standing recognition of delamination, blistering,
and reliability problems, and the attempts to find a
solution, these problems have been persistent in
electrical devices made of layered materials.
III. SUMMARY OF THE INVENTION
The inventors herein have observed that the
general problem of poor adherence between the
laminates or layers can be addressed by forming a
unique surface structure, which is particularly
suitable for joining the dielectric material to the
conductive coating and conductive layer. The surface
structure is comprised of teeth that are preferably
angled or hooked like fangs or canine teeth to enable
one layer to mechanically grip a second layer.
In comparison with the above-mentioned
roughening techniques of the prior art, it is believed
that a surface of the teeth is an improvement in that
there is an increase in surface area. However, it is still
better to use teeth that are fang-shaped to enable a
mechanical grip that functions in a different manner

76a
than adherence by means of increased surface area. By
using the fanged, angled, canine, or otherwise hooked
teeth (in addition to increased surface area), there is a
multidirectional, three dimensional interlacing or
overlapping of layers. For example, in joining the
dielectric material to the conductive coating and metal
layer, the conductive coating and metal layer is
actually burrowed in and under the dielectric material
and vice versa. Thus, separating them not only
involves breaking the surface area adherence, but also
involves destroying the integrity of at least one of the
layers by ripping the teeth, the layer pierced by them,
or both.
Further, it has been found preferable to have
numerous teeth sized and shaped so that they are not
too large or too small. If the teeth are too small, wide,
straight, and shallow, then the surface resembles the
roughened surface of prior art techniques, vaguely
analogous to a surface of molar teeth, and the
adherence is not much better than that achieved by
known prior art roughening techniques.
However, if the teeth are too large, deep, and
fanged or hook-shaped, the teeth undercut the surface
to such an extent that the strength of the dielectric
material surface is weakened. As a result, adherence
is decreased over the preferred embodiment.
Not too great and not too slight, the right sized and
shaped teeth, set in a fanged orientation and with
sufficient frequency, have been found to be the best
structure. If the correct balance of these critically
important factors is created, the result is a greatly
improved circuit board or other such electrical device.

77a
It is theorized by the inventors that the best
methods for producing the teeth is to use nonhomogeneous materials and/or techniques. For
example, a dielectric material can have a nonhomogeneous composition or thickness to bring about
an uneven chemical resistance, such that slowed
and/or repeated etching will form teeth instead of a
uniform etch.
IV. BRIEF DESCRIPTION OF THE DRAWINGS
The file of this patent contains at least one drawing
executed in color. Copies of this patent with the color
drawing(s) will be provided by the Patent and
Trademark Office upon request and payment of the
necessary fee
FIG. 1 is an illustration of a conductive coating and
metal layer applied dielectric material with a desirable
tooth structure;
FIG. 2 is an illustration of a prior art conductive
coating and metal layer on the applied dielectric
material with the surface produced by roughening
processes;
FIG. 3 is an illustration of a double sided printed
circuit board without plated through holes:
FIG. 4 is an illustration of a multilayer printed
circuit board with plated through holes, filled or
unfilled with conductive or nonconductive material;
FIG. 5 is an illustration of a multilayer printed
circuit board without plated through holes;

78a
FIG. 6 is an illustration of a multilayer printed
circuit board having more than two layers with plated
through holes filled or unfilled with conductive or
nonconductive material;
FIG. 7 is an illustration of any of the foregoing
printed circuit boards after applying a dielectric
material thereon;
FIG. 8 is an illustration of the multilayer printed
circuit board of FIG. 7 after forming micro vias:
FIG. 9 is an illustration of the multilayer printed
circuit board of FIG. 7 after opening the through holes
and after etching the applied dielectric material to
produce the teeth illustrated in FIG. 1;
FIG. 10 is an illustration of the multilayer printed
circuit board of FIG. 9 after application of a conductive
coating to fill in around the teeth and connect micro
via holes and the through holes; and
FIG. 11 is an illustration of the multilayer printed
circuit board of FIG. 10 after plating the conductive
coating to form a metal layer and complete forming
circuitry.
V. DETAILED DESCRIPTION OF THE
DRAWINGS
FIG. 1 is an illustration of a conductive coating and
metal layer on the applied dielectric material with a
desirable tooth structure. In contrast, FIG. 2 is an
illustration of a prior art conductive coating and metal
layer on the applied dielectric material with the
surface produced by roughening processes. In both

79a
FIGS. 1 and 2, show a dielectric material and a
combination of a thin conductive coating and metal
later.
Compare FIG. 1 and FIG. 2, and note particularly
the size, shape, frequency, and depth of the teeth in
FIG. 1 with the surface produced by roughening in
FIG. 2.
A way of articulating this "teeth concept is to view
each tooth as being made of one layer and set in a
second layer. However, the perspective is arbitrary,
and one could equally view each tooth as made of the
second layer set in the first. It could also be said that
the layers join in a saw-toothed manner, i.e., teeth
made of both materials in an interlocking bite. In any
case, however, there are teeth, and for the sake of
consistency, this specification will adopt the
convention of referring to the teeth as being made of
the conductive coating and metal layer set in the
dielectric material.
A further way of articulating the "teeth concept is
to view each tooth as being substantially triangular in
shape, with the base of the triangle being defined by a
plane of the applied dielectric material before it is
etched, or more precisely by the exterior surface
thereof. The invention can be carried by forming
cavities in the applied dielectric material 6 for
receiving the teeth, and then forming the teeth from
the conductive coating and metal layer formed
thereon. Generally, the teeth can be of any triangular
shape (e.g., equilateral, isosceles, scalene, right,
obtuse, or any combination thereof). Prefer ably,
though, the teeth are obtuse so as to hook or angle
under the exterior surface of the applied dielectric
material.

80a
The use of any shape of teeth increases the surface
area where the conductive coating is on the applied
dielectric
material.
However,
the
preferred
embodiment utilizes a sur face of obtuse, canine, or
fang-shaped teeth to help the conductive coating and
metal layer hook under the exterior surface of the
applied dielectric material to mechanically grip the
applied dielectric material. The obtuse, canine, or fang
shaped teeth are in contrast to the shallower, more
rounded surface typically produced by known
roughening techniques. Note in FIG. 2 that roughing
techniques can produce some occasional gouging, but
nothing on the order of the present invention.
As to size of the teeth, as mentioned above, it is
preferable that the teeth be within a certain size
range. The optimal size range for obtuse, canine, or
hook-shaped teeth involves a balance between
maximizing surface area and mechanical grip, but not
undercutting the surface of the applied dielectric
material 8 to such an extent as to weaken it.
Accordingly, the teeth should be sized at least 1 tenth
of a mil deep. Better is at least 1.25 tenths of a mil
deep, and even better is at least 1.5 tenths of a mil
deep. However, 1.75 tenths of a mil is acceptable, and
about 2 tenths of a mil is reaching the limit.
As to frequency, the teeth should be quite frequent
in number; at least about 5,000 teeth per linear inch,
and preferably at least about 10,000 teeth per linear
inch; and even better is at least about 15,000 teeth per
linear inch.
As to surface area, there should be at least about
25,000 teeth per square inch, better still is essentially

81a
at least about 100,000 per square inch, and preferably
at least about 200,000 per square inch, or even greater.
It should be recognized that the teeth generally are
not formed to a precise dimension. As shown in FIG. 1,
some of the teeth are somewhat differently sized,
angled, and proportioned. Thus, a representative
sample of the electrical device should have teeth in
about these ranges. Having at least about 20% of the
teeth in one or more of these ranges, and preferably at
least 50%, is a preferred balance of mechanical grip
without a weakening the integrity of the layering,
particularly in combination.
As illustrated in FIGS. 3-11, there is an electrical
device, such as a printed circuit board 2 having a base
4. The base 4 has a conductive layer 6 thereon. A
dielectric material 8 is applied on the conductive layer
6, and a conductive coating 10 (such as a thin coating
of palladium) is deposited on the dielectric material 8.
Metal layer 12 is formed on the conductive coating 10.
FIG.3 illustrates one of the many ways to begin the
process of forming the teeth in accordance with the
present invention. A first step (step 1), includes
providing a base 4 for constructing an electrical device,
such as a printed circuit board 2. FIG. 3 illustrates one
such construction, namely a base 4 for constructing a
multilayer printed circuit board 2, the base 4 having
any positive number of layers or laminates, for
example the two layers shown in FIGS. 3 and 4, or
more than two layers as illustrated in FIGS. 5 and 6,
etc. One configuration or another is not significant,
except that multiple layers provide a better medium
for constructing circuitry of increased complexity or
density. FIGS. 3-6 illustrate an embodiment in which

82a
the conductive layer 6 is on at least an upper side, and
preferably also on a lower side of the base 4.
As may be needed for a particular circuitry design,
FIG. 4 illustrates that the electrical device can be
further manipulated, for example, by forming through
holes 12 by mechanical drilling, laser drilling,
punching, or the like. The plated through holes 12 are
shown in FIGS. 4 and 6 as filled or unfilled with a
conductive or a nonconductive material.
FIG. 5 illustrates a configuration for the multilayer
printed circuit board 2 with base 4 having more than
two layers or laminates, the conductive layers 6
located there between.
FIG. 6 shows the multilayer printed circuit board 2
after forming, plating, and if needed, filling the
through holes 12 in the manner of FIG. 4.
To summarize, step 1 of the process includes
providing a base 4 for forming an electrical device such
as a printed circuit board 2, wherein the base 4 can be
formed to have one or more layers or laminates. At
least one conductive layer 6 is on the base 4. The base
4 can be double sided with the conductive layer 6 being
located outside the base 4 and between the layers or
laminates.
The printed circuit board 2 can be further prepared,
as may be desirable for a particular circuitry design,
by forming open through holes 12 and plating and if
needed, filling the through holes 12 to electrically
connect to that portion of the conductive layer 6
appropriate for whatever circuitry design is being
constructed, e.g., each side of a double sided circuit

83a
board 2. In other words, step 1 involves providing one
of the configurations described in FIGS. 3-6.
Step 2 includes preparing an outer-most surface of
the conductive layer 6 for any of the above-mentioned
configurations. The step of preparing is carried out to
enable adherence, e.g., of the applied dielectric
material 8 to the conductive layer 6, preferably in a
manner that utilizes a respective tooth structure. The
step of preparing can be carried out, for example, by
using an oxide or an oxide replacement process to treat
the conductive layer 6 to such an extent that the teeth
(or cavities for teeth) are formed.
As to using an oxide process, a copper oxide can be
chemically deposited on a copper surface to produce a
tooth-like structure on the surface of the copper. This
process is carried out to prepare the copper surface
prior to applying another layer of material, thereby
providing increased bond strength between the two
materials.
As to using an oxide replacement process to form a
tooth structure, a micro etch on the surface of the
copper is followed by a coating of an adhesion promoter
to enhance a bond between copper and the dielectric
material 8. For example, Alpha Metals, Inc. offers a
PC-7023 product which is suitable for an oxide
replacement process.
Step 3 includes applying the dielectric material 8 to
the outermost surface of the conductive layer 10 (and
the base 4 if appropriate for the circuitry or electrical
device at issue) prepared in accordance with the step
2. The dielectric material 8 can be applied by as a (dry)
film, a (liquid) curtain coating, a (liquid) roller coating,

84a
or an analogous application or bonding technique.
FIG. 7, in comparison with FIGS. 3-6, illustrates the
dielectric material 8 on the outermost surface(s) of the
conductive layer 4 (and the base 2).
Step 4 includes preparing the applied dielectric
material 8 for receipt of a conductive coating 10, which
to exemplify, is detailed more particularly below.
Generally, though, the preparing step 4 can include
exposing, developing, and curing the applied dielectric
material 8 to form patterns for further construction of
the circuitry, including such features as constructing a
via or photo via 14, for optionally filling by conductive
or non-conductive materials, e.g., screened, roller
coated, etc. Compare FIGS. 6 and 7.
Step 5 includes forming open through holes 16 as
shown in FIG. 9. As indicated above with regard to
filled through holes 12, the open through holes 16 can
be formed by such methods as drilling, boring,
punching, and the like.
Step 6, as discussed subsequently in greater detail,
involves the etching cavities, veins, openings, or gaps
in the applied dielectric material 8, or more
particularly an outermost surface thereof, to
accommodate the teeth. One technique for forming the
teeth is somewhat similar to what has been known as
the swell and etch or desmear process, except that
contrary to all known teachings in the prior art, in
effect, a “double desmear process" is utilized. That
is, not merely increasing the times and temperatures
and other parameters for the desmear process, but
instead completing the process a first time,
and then completing the process a second time.
Consider using the following Shipley products for the
double desmear

85a
process: CIRCUPOSIT MLB conditioner 211,
promoter 213B, and neutralizer 216. Nonhomogeneous materials and/ or processes seem to be
determinative.
Step 7 includes applying a conductive coating 10 to
the cavities in the applied dielectric material 8. The
conductive coating 10 is also applied to the photodefined via holes 14 and the open through holes 16.
Techniques for applying the conductive coating 10
include a direct plate process or an electroless copper
process. To carry out the present invention, it is
preferable to use a palladium-based direct plate
process or other non-electroless process. In this regard,
a Crimson product of Shipley is suitable, though the
desmear process as disclosed herein is contrary to the
manufacturer's specifications, i.e., a “double desmear
process,” rather than the single desmear process of the
known prior art. Compare FIGS. 1, 2, and 9.
Step 8 includes forming a metal layer 18 on the
conductive coating 10, by such metal deposition
techniques as electrolytic or non-electrolytic plating, to
form the tooth structure and teeth as discussed above.
The metal layer 18 and conductive coating 10
collectively form circuitry on the outermost surface of
the applied dielectric material 8, which can connect to
whatever portion of conductive layer 6 as may be
needed for a particular design, preferably by making
at least one connection through a micro via. See FIG.
10. A direct plate process, followed as needed by say a
semi-additive or fully additive pattern plating process,
is recommended.
A direct plate process is a replacement for
traditional electroless copper plating of non-

86a
conductive surfaces. Direct plate processes apply a
very thin conductive coating (e.g., using palladium or
graphite) to the non-conductive surface, thus enabling
electroplating of copper or other conductive material
onto the previously non-conductive surface. Thus,
“direct plate” is used to describe directly plating onto
a non-conductive surface without first requiring a non
electrolytic (electroless) plating process.
A semi-additive plating process involves first
electroplating a thin conductive layer onto the total
non-conductive surface, before applying a photoresist
and subsequently pattern plating the required
circuitry. For semi-additive plating, the thin
conductive layer must be removed (etched) from the
non-conductive surface. For fully additive plating,
photoresist is applied directly on the non-conductive
surface, followed by pattern plating the required
circuitry (after applying the thin conductive coating in
the direct plate process). That is, the fully additive
plating forms only the required circuitry and requires
no etching.
It should be recognized that the present invention
can optionally be carried out by initially skipping step
5 (forming the open through holes 16) during initial
“sets of the foregoing steps, i.e., completing steps 6 and
7; then repeating steps 2 through 8, again skipping
step 5 each time until the last set of steps, as required
to form the electrical device or circuitry of interest.
This will produce an electrical device with a second
tooth structure that is not set in the first layer of
dielectric material 8, and indeed the idea of using a
toothed structure is not limited to any one layer and is
best employed in holding multiple layers together.

87a
Step 5 can be carried out after the desired layers have
been formed.
Turning now more particularly to the process for
forming the teeth and the cavities for the teeth, the
present invention can be carried out by a new use of a
Ciba-Geigy product known as Probelec XB 7081 as a
photoimagable dielectric material 8. Generally, and in
accordance with its specification sheet, Probelec XB
7081 is a single component, 100% epoxy
photodielectric material specially developed for
Sequential Build Up (SBU) of multilayer boards.
Probelec XB 7081 is a negative working, high
resolution liquid photo-imageable (LPI) material
which allows mass-forming of micro vias for
fabrication of high-density interconnects (HDI).
Compatible
with
conventional
plating
and
circuitization techniques, Probelec XB 7081 also
provides outstanding electrical and physical
properties for most circuit board applications, and is
compatible with most circuit board substrate
materials.
Probelec XB 7081 is specially developed to act as a
dielectric between circuit layers in fabrication of blind
and buried micro via MLBS. The high resolution photo
dielectric allows mass forming of micro vias for the
construction of high density interconnects. Probelec
XB 7081 has wide process latitudes, excellent handling
characteristics, and is known as self-leveling and
having an adjustable dry thickness of 1-3 mils.
Probelec XB 7081 has a high resolution capability of 12 mil micro vias, and is known for chemical resistance,
even for additive plating; there are excellent electrical
and physical properties and a UL 94V-0 rating.

88a
Probelec is specified to demonstrate more than a 6
lb/in peel strength. By application of this invention
this peel strength should be significantly increased
due to the formation of the teeth. Accordingly the peel
strength produced in accordance with the present
invention is greater than the peal strength produced
by the desmear process of the prior art, i.e., a single
pass desmear process. For example, if a prior art
desmear process is used to produce a 6 lb/in average
peel strength, the present invention may produce an
average peel strength on the order of 10 lb/in or more.
As to the general properties of Probelec XB 7081,
there is a storage stability (1-component system) for
more than 6 months at 25°C.; the pot life in a coater
machine is more than 1 week; the hold time of the
coating is more than 1 week (dark or exposed) and
more than 1 day in yellow light.
When using Probelec XB 7081 to carry out the
above-mentioned step 3 of applying a coating of the
dielectric material, there is a pre-cleaning sub-step A.
Pre-cleaning should be carried out in chemical,
mechanical brushing, or pumice spray units. Extra
precaution is needed to ensure that the pre-cleaning
equipment and chemistry is not contaminated by
materials from previous processing steps. Contrary to
Ciba specifications, it is preferred to use an oxide or
oxide replacement to prepare the surface prior to
applying a coating of the dielectric. Hold times after
pre-cleaning should be minimized to avoid oxidation of
copper surfaces. In all coating applications, precleaned substrates should be free of particles.
Additional cleaning steps, e.g., with detergents, may
be required to remove organic residues.

89a
Next there is a coating sub-step B. Probelec
XB7081 seems to have been primarily designed for
curtain coating and is delivered with a solid content of
58%. Substrates should be heated to about 40° C. prior
to coating to ensure all residual moisture is removed
and to prepare substrate for curtain coating. For
initial charging of a coater machine, Probelec XB 7081
needs to be premixed with about 15% of PMA (PMA is
1-methoxy-2-propyl acetate) to ensure proper
viscosity. The additional PMA thins the coating down
to about 50% solids.
The resin temperature should be 25+1°C., with a
conveyor speed of 90 m/min. The viscosity is at 25°C.
DIN AK4 cup at 60 sec. (400 cps), with a coater gap
width of 500 mm. The wet weight is 7.5-10.0 gms/600
CM sq. and 11.6-15.5gms/ft sq. The dry thickness is 4560 mm.
Next is a flash dry sub-step C. Coated panels must
be held in a horizontal position under dust-free
conditions to air dry. At this stage, minimal air flow is
recommended. The drying time is 12-18 min. at a
drying temperature of 30-40°C.
Next is a final dry sub-step D. After flash air
drying, final drying at an elevated temperature is
needed to achieve better than 95% removal of solvents
for tack-free handling. This can be accomplished in
batch or conveyorized tunnel ovens, as follows:

Drying
Temperature:
Drying Time:

Tunnel Oven

Batch Oven

130-140° C.
2-3 minutes

90° C.
30 minutes

90a
After cooling, the panels can have a second side
coating (Sub-steps A through D) if appropriate for the
circuit design, and then for an exposure sub-step E.
In the exposure sub-step E, catalyst for cross
linking of epoxy resin is generated. The main spectral
sensitivity of Probelec XB 7081 is in the range of 350420 nm. Conventional exposure units, collimated or
non-collimated, with peak spectral emission of 365 nm
are recommended. Both diazo and silver halide films
are suitable as working photo-tools. Good artwork to
coating contact is essential for consistent micro via
reproduction. The exposure energy is 1200-1600
mJ/cm sq. and the exposure time (7 kW) is 30-40
seconds. The Stouffer Step (21 scale) is 5-7.
Next is a thermal bump step F. Thermal bump
provides the energy for crosslinking the catalyzed
epoxy resin. This process can be done in convection
batch or conveyorized tunnel ovens. For a batch oven,
110° C. for 60 min. is appropriate, and for a
conveyorized tunnel oven, 130°C. for 10-20 min. is
appropriate.
Next is a developing sub-step G. The unexposed
areas of Probelec XB7081 are developed away in
continuous spray developing machines. Various
models with different processing capacities are
available for this purpose. A Ciba-Geigy product
DY950 (Gamma-Butyrolactone (GBL)) developer is
recommended for processing Probelec XB7081. This
developer is a halogen-free, high-boiling organic
solvent suitable for on-site distillation or recycling.
Probimer 450/470 spray developing equipment is
specially designed for use with this developer solution.
The temperature is 20+2° C., and the spray pressure

91a
is 2-4 bar. The speed for Probimer 450 is 2-3 m/min:
for Probimer 470, 3-4 m/min.
Next is a final cure sub-step H. Final thermal
curing is needed to impart good mechanical, chemical,
and electrical properties to the dielectric film. The
thermal curing can take place in batch or conveyorized
tunnel ovens. The thermal curing temperature is 150°
C., with a thermal curing time of 60 minutes.
Next can come the step 5 of further preparing, for
example, by forming through holes 16. If plated
through holes 16 (PTH's) are needed for
interconnecting layers to the bottom or back side of the
printed circuit board 2, drilling should of course be
done before plating. This allows the plating of the
surface together with the through holes 16. Plating
and such post-processing of the photoimagable
dielectric material 8 is dependent on particular
process preferences. Probelec XB7081 is compatible
with panel-plate, pattern-plate or additive plating.
The following process sub-steps of the abovementioned step 6 describe a generic sequence for a
desmear process to form cavities in the dielectric.
Although Probelec XB7081 apparently was intended
for use in the common desmear (swell and etch)
process as used in conventional plated through hole
plating lines, Probelec XB7081 can alternatively be
used in carrying out the present invention. For
example, the present invention differs from the
common desmear process in that sub-steps in the
desmear process are repeated as a way of forming the
teeth. Sub-step A, swelling the dielectric material 8,
can be carried out with butyl diglycol/sodium
hydroxide/water 80°C. for 3-5 minutes. Sub-step B is

92a
rinsing the dielectric material 8 in deionized water at
room temperature for 4 minutes. Sub-step C is etching
the dielectric material 8, which can be carried out
using
potassium
permanganate/sodium
hydroxide/water 80° C. 6-10 minutes. Sub-step D is
rinsing the dielectric material 8 in deionized water at
room temperature for 4 minutes. Sub-step D includes
a further rinsing of the dielectric material 8 in
deionized water at room temperature for 4 minutes.
Sub-step E is neutralizing the dielectric material 8 in
sulfuric peroxide (1.5%) for 3 to 5 minutes. Finally step
F is rinsing the dielectric material 8 in deionized water
at room temperature for 4 minutes.
In stark contrast with the etch and swell process of
the known prior art, however, a second pass through
the process (sub-steps A through F) is used. The second
pass seems to make use of non-homogenaities in
bringing about a formation of the teeth. Thus, unlike
the prior swell and etch chemical roughening process,
which produces a surface characterized by a surface
gloss measurement at an angle of 60° which is between
15 and 45%, the present invention has less gloss
(<10%).
Turn now in greater detail to the step 7 of applying
the conductive coating 10 for subsequent deposition of
the metal layer 18 by, say, plating. Good results can be
achieved with a flash plate of 0.7-1.0 mm (30-40 micro
inches). The flash plate is followed by baking at 130150° C., for 2 hours.
For pattern plating, plating resist can be applied
after baking. Depositing the metal layer 18 by
electroplating can be carried out such that there is 1025 mm (0.4-1.0 mil.).

93a
While a particular embodiment of the present
invention has been disclosed, it is to be understood
that various different modifications are possible and
are within the true spirit of the invention, the scope of
which is to be determined with reference to the claims
set forth below. There is no intention, therefore, to
limit the invention to the exact disclosure presented
herein as a teaching of one embodiment of the
invention.
We claim:
1. A process of making an electrical device, the
process including:
removing a portion of a dielectric material in
producing cavities in a surface of a
remaining portion of the dielectric material;
and
building up a conductive layer in the
cavities in forming teeth set in and under
the surface and in forming a portion of
circuitry of an electrical device, wherein a
plurality of the cavities are obtuse with
respect to the top surface, and a plurality of
the cavities are at least 1 tenth of a mil deep
and less than 1.75 tenths of a mil deep, and
wherein at least one of the cavities includes
an upgrade slope with respect to the surface
of the remaining portion of the dielectric
material, and one of the teeth engages the
remaining portion of the dielectric material
at the slope.

94a
2. The process of claim 1, wherein the removing of
the portion is sufficient to produce a surface gloss
measurement at an angle of 60 degrees of less than
10%.
3. The process of claim 1, wherein the producing
cavities does not include physical roughening, and the
building up the conductive layer includes building up
the conductive layer in producing a dielectric surface
contact area greater than a dielectric surface contact
area that would be produced by a single pass
roughening.
4. The process of claim 1, wherein the producing
cavities does not include physical roughening, and the
building up the conductive layer includes building up
the conductive layer in producing a peel strength
greater than a peel strength that would be produced
by a single desmear process, and the forming teeth
includes forming a plurality of hooked teeth.
5. The process of claim 1, wherein the producing
cavities does not include physical roughening, and the
building up the conductive layer includes filling the
cavities sufficiently that separation of the conductive
layer from the remaining portion of the dielectric
material requires destroying integrity of at least one
of the conductive layer and the remaining portion of
the dielectric material.
6. The process of claim 2, wherein the building up
is sufficient to produce a peel strength greater than a
peel strength of a single desmear process.

95a
7. A process of making an electrical device, the
process including:
producing, from a dielectric material, a
surface including cavities remaining from
removing a portion of the dielectric material;
and
building up a conductive layer in the cavities
in forming substantially angular teeth set in
a remaining portion of the dielectric material
and in forming a portion of circuitry of an
electrical device, and wherein a sample of the
circuitry has at least 20% of the teeth being at
least 1 tenth of a mil deep and less than 1.75
tenths of a mil deep, and
wherein at least one of the cavities includes
an upgrade slope with respect to the surface
and one of the teeth engages the remaining
portion of the dielectric material at the slope.
8. The process of claim 7, wherein the removing of
the portion is sufficient to produce a surface gloss
measurement at an angle of 60 degrees of less than
10%.
9. The process of claim 7, wherein the removing is
such that froming the cavities does not include
physical roughening, and the building up the
conductive layer includes building up the conductive
layer in producing a dielectric surface contact area
greater than a dielectric surface contact area that
would be produced by a single pass roughening, and
the forming substantially angular teeth includes
forming a plurality of substantially angular teeth that

96a
mechanically grip the remaining portion of the
dielectric material, more than by adherence.
10. The process of claim 7, wherein the removing is
such that forming the cavities does not include
physical roughening, and the building up the
conductive layer includes building up the conductive
layer in producing a peel strength greater than a peel
strength that would be produced by a single desmear
process, and the forming substantially angular teeth
includes forming a plurality of substantially angular
hooked teeth.
11. The process of claim 7, wherein the removing is
such that forming the cavities does not include
physical roughening, and the forming substantially
angular teeth is such that separation of the conductive
layer from the remaining portion of the dielectric
material would destroy integrity of at least one of the
conductive layer and the remaining portion of the
dielectric material.
12. A process of making an electrical device, the
process including:
building up a conductive layer of material on
a surface of a layer of dielectric material, the
layers joined in a saw-tooth manner made of
both materials in an interlocking bite in
forming a portion of circuitry of an electrical
device, the conductive layer forming teeth
such that a sample of the circuitry has a
frequency of the teeth sufficient to provide at
least 5,000 of the teeth per linear inch, the
teeth set respectively in cavities of the bite,
and the sample of the circuitry has at least

97a
20% of the teeth being at least 1 tenth of a mil
deep and less than 2 tenths of a mil deep, and
wherein at least one of the cavities includes
an upgrade slope with respect to the surface,
and one of the teeth engages a portion of the
dielectric material at the slope.
13. The process of claim 12, further including
providing a micro via interconnect for the circuitry.
14. The process of claim 12, wherein, prior to the
building up, the layer of the dielectric material has a
surface gloss such that a surface gloss measurement
at an angle of 60 degrees is less than 10%.
15. The process of claim 12, wherein the removing
is such that forming the cavities does not include
physical roughening, and the building up the
conductive layer includes building up the conductive
layer in producing a dielectric surface contact area
greater than a dielectric surface contact area that
would be produced by a single pass roughening. Such
that a plurality of the teeth mechanically grip the
layer of dielectric material, more than by adherence,
at the surface contact area.
16. The process of claim 12, wherein the producing
the interlocking bite does not include physical
roughening, and the building up the conductive layer
includes building up the conductive layer in producing
a peel strength greater than a peel strength that would
be produced by a single desmear process, such that the
forming teeth includes forming a plurality of hooked
teeth.

98a
17. The process of claim 12, wherein the forming
teeth is such that separation of the layers would
destroy integrity of at least one of the conductive layer
and the dielectric material.
18. A process of making an electrical device, the
process including:
building up a conductive layer in filling
undercuttings with respect to a surface of a
dielectric material so as to form a plurality of
teeth in cavities, some of the teeth being
obtuse to the surface and in the range of 1
tenth of a mil deep to 1.75 tenths of a mil deep,
informing a portion of circuitry of an electrical
device,
wherein at least one of the cavities includes
an upgrade slope with respect to the surface
of the dielectric material, and one of the teeth
engages a portion of the dielectric material at
the slope.
19. A process of making an electrical device, the
process including:
producing a surface with cavities remaining
after removing portion of a dielectric material
sufficient to produce a surface with a surface
gloss measurement at an angle of 60 degrees
of less than 10%; and
building up a conductive layer in the cavities
in forming electrical device circuitry, wherein
the cavities are obtusoly angled and the
building up the conductive layer includes

99a
forming teeth in the cavities and in the range
of 1 tenth of a mil deep to 1.75 tenths of a mil
deep, and
wherein at least one of the cavities includes
an upgrade slope with respect to the surface,
and one of the teeth engages a portion of the
dielectric material at the slope.
20. The process of claim 19, wherein producing the
cavities does not include physical roughening, and the
building up the conductive layer includes building up
the conductive layer in producing a dielectric surface
contact area greater than a dielectric surface contact
area that would be produced by a single pass
roughening, and the forming teeth includes forming a
plurality of teeth that mechanically grip, more than by
adherence, the surface contact area.
21. The process of claim 19, wherein the producing
cavities does not include physical roughening, and the
building up the conductive layer fills the cavities
sufficiently to produce a peel strength greater than a
peel strength that would be produced by a single
desmear process, and the forming teeth includes
forming a plurality of hooked teeth.
22. The process of claim 19, wherein the producing
cavities does not include physical roughening, and the
building up the conductive layer includes building up
the conductive layer sufficiently that separation of the
conductive layer from the dielectric material would
destroy integrity of at least one of the conductive layer
and the dielectric material.

100a
23. A process of making an electrical device, the
process including:
forming electrical device circuitry with teeth
produced by building up a conductive layer in
cavities of a dielectric material that has an
exterior surface and a dielectric surface area
greater than a dielectric surface area that
would be produced by a single pass
roughening, wherein a sample of the circuitry
has at least 20% of the teeth that are within
the range of 1 tenth of a mil deep to 1.75
tenths of a mil deep, and
wherein at least one of the cavities includes
an upgrade slope with respect to the exterior
surface, and one of the teeth engages a portion
of the dielectric material at the slope.
24. The process of claim 23, further including
providing a micro via interconnect for the circuitry.
25. The process of claim 23, further including
producing the cavities without physical roughening
and sufficiently to produce a peel strength greater
than a peel strength that would be produced by a
single desmear process, and Such that a plurality of
the teeth are hooked teeth.
26. The process of claim 23, wherein the conductive
layer is built up sufficiently that separation of the
conductive layer from the dielectric material would
destroy integrity of at least one of the conductive layer
and the dielectric material.

101a
27. A process of making an electrical device, the
process including:
combining a dielectric material with a
conductive layer in forming a portion of
circuitry of an electrical device, said
combining being carried out with means for
joining the conductive layer to the dielectric
material,
the means including teeth built up on the
dielectric material and angled sufficiently to
mechanically grip the dielectric material in
three dimensions, wherein a plurality of the
teeth are within the range of 1 tenth of a mil
deep to 1.75 tenths of a mil deep, and
wherein at least one of the teeth is in one of a
plurality of cavities that includes an upgrade
slope with respect to an etched surface of the
dielectric material, and one of the teeth
engages a portion of the dielectric material at
the slope.
28. A process of making an electrical device, the
process including:
combining a dielectric material with means
for joining a conductive layer built up on the
dielectric material sufficient to produce a peel
strength greater than a peel strength that
would be produced by a single desmear
process, the conductive layer forming a
portion of circuitry, wherein

102a
the combining is carried out with the means
for joining comprised of teeth, a plurality of
the teeth being obtuse to a top surface of the
dielectric material and within cavities in the
range of at least 1 tenth of a mil deep to 1.75
of a mil deep, and
wherein at least one of the cavities includes
an upgrade slope with respect to the surface
of the dielectric material, and one of the teeth
engages a portion of the dielectric material at
the slope.
29. A process of making an electrical device, the
process including:
forming electrical device circuitry by building
up a conductive layer on a surface of dielectric
material so as to produce a peel strength
greater than a peel strength that would be
produced by a single desmear process,
wherein
a sample of the circuitry includes at least 20%
of teeth that are within the range of 1 tenth of
a mil deep to 1.75 tenths of a mil deep, and
wherein at least one of a plurality of cavities,
respectively adjacent to the teeth, includes an
upgrade slope with respect to the surface of
the dielectric material, and one of the teeth
engages a portion of the dielectric material at
the slope.
30. The process of claim 29, wherein the electrical
device comprises a circuit board.

103a
31. The process of claim 29, wherein the building
up the conductive layer includes building up the
conductive layer sufficiently that separation of the
conductive layer from the dielectric material would
destroy integrity of at least one of the conductive layer
and the dielectric material.
32. A process of making an electrical device, the
process including:
producing a surface remaining from removing
a portion of a dielectric material; and
applying means for mechanically gripping a
conductive layer to the surface so that a
conductive layer is burrowed in and under the
surface, wherein
the conductive layer forms a portion of
circuitry of an electrical device, wherein the
applying is carried out with the means for
mechanically gripping comprising teeth, and
a plurality of the teeth are within the range of
1 tenth of a mil deep to 2 tenths of a mil deep,
and
wherein at least one of a plurality of cavities,
respectively adjacent to the teeth, includes an
upgrade slope with respect to the surface of
the dielectric material, and one of the teeth
engages a portion of the dielectric material at
the slope.
33. A process of making an electrical device, the
process including:

104a
forming electrical device circuitry by building
up a conductive layer on a dielectric material
sufficiently that separation of the conductive
layer from the dielectric material would
destroy integrity of the conductive layer and
of the dielectric material, wherein
the building up the conductive layer includes
forming teeth that are within the range of 1
tenth of a mil deep to 1.75 tenths of a mil deep,
and
wherein at least one of a plurality of cavities,
respectively adjacent to the teeth, includes an
upgrade slope with respect to the surface of
the dielectric material, and one of the teeth
engages a portion of the dielectric material at
the slope.
34. A process of making an electrical device, the
process including:
building up a conductive layer on a dielectric
material sufficient to produce a surface gloss
measurement at an angle of 60 degrees of less
than 10%, in forming circuitry of an electrical
device, wherein
the building up the conductive layer includes
producing teeth within the range of 1 tenth of
a mil deep to 1.75 tenths of a mil deep, and
wherein at least one of a plurality of cavities,
respectively adjacent to the teeth, includes an
upgrade slope with respect to the surface of

105a
the dielectric material, and one of the teeth
engages a portion of the dielectric material at
the slope.
35. The process of claim 34, wherein building up the
conductive layer includes building up the conductive
layer sufficiently that separation of the conductive
layer from the dielectric material would destroy
integrity of the conductive layer.
36. The process of claim 34, wherein the building
up the conductive layer includes building up the
conductive layer sufficiently that separation of the
conductive layer from the dielectric material would
destroy integrity of the dielectric material.
37. The process of claim 34, wherein the building
up the conductive layer includes building up the
conductive layer sufficiently that separation of the
conductive layer from the dielectric material would
destroy integrity of the conductive material and the
dielectric material.
38. A process of making an electrical device, the
process including:
combining a dielectric material with means
for joining a conductive layer built up on a
conductive coating on the dielectric material
at a dielectric surface contact area greater
than a dielectric surface contact area that
would be produced by a single pass
roughening,
the conductive layer forming a portion of
circuitry, wherein the combining is carried

106a
out with the means for joining comprised of
teeth within the range of 1 tenth of a mil deep
to 1.75 tenths of a mil deep, and
wherein at least one of a plurality of cavities,
respectively adjacent to the teeth, includes an
upgrade slope with respect to an etched
surface of the dielectric material, and one of
the teeth engages a portion of the dielectric
material at the slope.
39. A process of making an electrical device, the
process including:
combining a dielectric material with means
for joining a conductive layer built up on the
dielectric
material
sufficiently
that
separation of the dielectric material from the
conductive layer requires destroying integrity
of at least one of the conductive layer and the
dielectric material,
said means for joining comprising filled
cavities that form a portion of circuitry of an
electrical device, wherein the filled cavities
comprise teeth that are within the range of 1
tenth of a mil deep to 1.75 tenths of a mil deep,
and
wherein at least one of the cavities includes
an upgrade slope with respect to an etched
surface of the dielectric material, and one of
the teeth engages a portion of the dielectric
material at the slope.

107a
40. The process of any one of claims 1,7, 11, 18, 19,
23, 27, 28, 32, 33, 38, or 39 wherein:
a sample of the circuitry includes a frequency
of the teeth sufficient to provide at least 5,000
said teeth per linear inch
41. The process of any one of claims 1, 7, 12, 18, 19,
23, 27, 28, 29, 32, 33,38, or 39 wherein:
a sample of the circuitry includes a frequency
of the teeth sufficient to provide at least
10,000 said teeth per linear inch.
42. The process of any one of claims 1, 7, 12, 18, 19,
23, 27, 28, 29, 32, 33, 38, or 39 wherein:
a sample of the circuitry includes a frequency
of the teeth sufficient to provide at least
15,000 said teeth per linear inch.
43. The process of any one of claims 1, 7, 12, 18, 19,
23, 27, 28, 29, 32, 33, 38, or 39 wherein:
a sample of the circuitry includes a frequency
of the teeth sufficient to provide at least
25,000 said teeth per square inch.
44. The process of any one of claims 1, 7, 12, 18, 19,
23, 27, 28, 29, 32, 33, 38, or 39 wherein:
a sample of the circuitry includes a frequency
of the teeth sufficient to provide at least
100,000 said teeth per square inch.

108a
45. The process of any one of claims 1,7, 12, 18, 19,
23, 27, 28, 29, 32, 33, 38, or 39 wherein:
a sample of the circuitry includes a frequency
of the teeth sufficient to provide at least
200,000 said teeth per square inch.
46. The process of any one of claims 1, 7, 12, 18, 19,
23, 27, 28, 29, 32, 33, 38, or 39 wherein: a sample of
the circuitry includes at least 20% of the teeth are
shaped to mechanically grip the dielectric material.
47. The process of any one of claims 1, 12, 18, 19,
27, 28, 32, 33, 38, or 39 wherein:
a sample of the circuitry includes at least 50% of
the teeth that are obtuse shaped.
48. The process of any one of claims 1, 7, 12, 18, 19,
23, 27, 28, 32, 33, 38, or 39 wherein:
a sample of the circuitry includes at least 20%
of the teeth that are within the range of at
least 1 tenth of a mil deep to 1.75 tenths of a
mil deep.
49. The process of any one of claims 1, 7, 12, 18, 19,
23, 27, 28, 29, 32, 33, 38, or 39 wherein: a sample of
the circuitry includes at least 50% of the teeth that are
within the range of least 1 tenth of a mil deep to 1.75
tenths of a mil deep.
50. The process of any one of claims 1, 3, 7, 12, 18,
19, 27, 28, 32, 33, 38, or 39 wherein: a sample of the
circuitry includes at least 20% of the teeth that are

109a
within the range of tenth of a mil deep to 1.5 tenths of
a mil deep.
51. The process of any one of claims 1, 2, 3, 7, 12,
18, 19, 27, 28, 29, 32, 33, 38, or 39 wherein: a sample
of the circuitry includes at least 50% of the teeth that
are within the range of tenth of a mil deep to 1.5 tenths
of a mil deep.
52. The process of any one of claims 1, 7, 12, 18, 19,
23, 27, 28, 29, 32, 33, 38, or 39 wherein: a sample of
the circuitry includes at least 20% of the teeth that are
in the range of 1.5 tenths of a mil deep to 1.75 tenths
of a mil deep.
53. The process of any one of claims 1, 7, 12, 18, 19,
23, 27, 28, 29, 32, 33, 38, or 39 wherein: a sample of
the circuitry includes at least 50% of the teeth that are
in the range of 1.5 tenths of a mil deep to 1.75 tenths
of a mil deep.
54. The process of claim 40, further including
configuring the circuitry of the electrical device as
multi-layer circuitry, one of said layers comprising
said teeth and another of said layers comprising
correspondingly made teeth.
55. The process of claim 41, further including
configuring the circuitry of the electrical device as
multi-layer circuitry, one of said layers comprising
said teeth and another of said layers comprising
correspondingly made teeth.
56. The process of claim 42, further including
configuring the circuitry of the electrical device as
multi-layer circuitry, one of said layers comprising

110a
said teeth and another of said layers comprising
correspondingly made teeth.
57. The process of claim 43, further including
configuring the circuitry of the electrical device as
multi-layer circuitry, one of said layers comprising
said teeth and another of said layers comprising
correspondingly made teeth.
58. The process of claim 44, further including
configuring the circuitry of the electrical device as
multi-layer circuitry, one of said layers comprising
said teeth and another of said layers comprising
correspondingly made teeth.
59. The process of claim 45, further including
configuring the circuitry of the electrical device as
multi-layer circuitry, one of said layers comprising
said teeth and another of said layers comprising
correspondingly made teeth.
60. The process of claim 46, further including
configuring the circuitry of the electrical device as
multi-layer circuitry, one of said layers comprising
said teeth and another of said layers comprising
correspondingly made teeth.
61. The process of claim 47, further including
configuring the circuitry of the electrical device as
multi-layer circuitry, one of said layers comprising
said teeth and another of said layers comprising
correspondingly made teeth.
62. The process of claim 48, further including
configuring the circuitry of the electrical device as
multi-layer circuitry, one of said layers comprising

111a
said teeth and another of said layers comprising
correspondingly made teeth.
63. The process of claim 49, further including
configuring the circuitry of the electrical device as
multi-layer circuitry, one of said layers comprising
said teeth and another of said layers comprising
correspondingly made teeth.
64. The process of claim 50, further including
configuring the circuitry of the electrical device as
multi-layer circuitry, one of said layers comprising
said teeth and another of said layers comprising
correspondingly made teeth.
65. The process claim 51, further including
configuring the circuitry of the electrical device as
multi-layer circuitry, one of said layers comprising
said teeth and another of said layers comprising
correspondingly made teeth.
66. The process of claim 52, further including
configuring the circuitry of the electrical device as
multi-layer circuitry, one of said layers comprising
said teeth and another of said layers comprising
correspondingly made teeth.
67. The process of claim 53, further including
configuring the circuitry of the electrical device as
multi-layer circuitry, one of said layers comprising
said teeth and another of said layers comprising
correspondingly made teeth.
68. The process of claim 40, further including
configuring the circuitry as of double sided circuitry,

112a
one side comprising said teeth and another side
comprising correspondingly made teeth.
69. The process of claim 41, further including
configuring the circuitry as double sided circuitry, one
side comprising said teeth and another side
comprising correspondingly made teeth.
70. The process of claim 42, further including
configuring the circuitry as double sided circuitry, one
side comprising said teeth and another side
comprising correspondingly made teeth.
71. The process of claim 43, further including
configuring the circuitry as of double sided circuitry,
one side comprising said teeth and another side
comprising correspondingly made teeth.
72. The process of claim 44, further including
configuring the circuitry as of double sided circuitry,
one side comprising said teeth and another side
comprising correspondingly made teeth.
73. The process of claim 45, further including
configuring the circuitry as of double sided circuitry,
one side comprising said teeth and another side
comprising correspondingly made teeth.
74. The process of claim 46, further including
configuring the circuitry as of double sided circuitry,
one side comprising said teeth and another side
comprising correspondingly made teeth.
75. The process of claim 47, further including
configuring the circuitry as double sided circuitry, one

113a
side comprising said teeth and another
comprising correspondingly made teeth.

side

76. The process of claim 48, further including
configuring the circuitry as double sided circuitry, one
side comprising said teeth and another side
comprising correspondingly made teeth.
77. The process of claim 49, further including
configuring the circuitry as double sided circuitry, one
side comprising said teeth and another side
comprising correspondingly made teeth.
78. The process of claim 50, further including
configuring the circuitry as double sided circuitry, one
side comprising said teeth and another side
comprising correspondingly made teeth.
79. The process of claim 51, further including
configuring the circuitry as double sided circuitry, one
side comprising said teeth and another side
comprising correspondingly made teeth.
80. The process of claim 52, further including
configuring the circuitry as double sided circuitry, one
side comprising said teeth and another side
comprising correspondingly made teeth.
81. The process of claim 53, further including
configuring the circuitry as double sided circuitry, one
side comprising said teeth and another side
comprising correspondingly made teeth.
82. A product produced by the process of any one of
claims 1, 7, 12, 18, 19, 23, 27, 28, 32, 29, 33, 38, or 39.

114a
83. An electrical device including:
a dielectric material comprising a surface
with cavities remaining from removal of a
portion of the dielectric material;
a conductive layer built up on the dielectric
material So as to fill the cavities and form
teeth set in and under the surface of the
dielectric material; and wherein:
the conductive layer is a portion of circuitry of
an electrical device, and a plurality of the
cavities are obtuse with respect to the top
surface and are at least 1 tenth of a mil deep
to 1.75 tenths of a mil deep, and
wherein at least one of the cavities includes
an upgrade slope with respect to the surface
of the dielectric material, and one of the teeth
engages a portion of the dielectric material at
the slope.
84. The device of claim 83, wherein, prior to the
conductive layer of material being built up thereon,
the surface with the cavities has a gloss sufficient to
produce a surface gloss measurement at an angle of 60
degrees of less than 10%.
85. The device of claim 83, wherein the electrical
device comprises a micro via interconnect.
86. The device of claim 83, wherein the teeth have
a dielectric surface contact area greater than a
dielectric surface contact area that would be produced

115a
by a single pass roughening, and some of the teeth
comprise hooked teeth.
87. The device of claim 83, wherein the conductive
layer fills the cavities sufficiently to produce a peel
strength greater than a peel strength that would be
produced by a single desmear process, and Some of the
teeth mechanically grip the dielectric material, more
than by adherence.
88. The device of claim 83, wherein the conductive
layer fills the cavities sufficiently that separation of
the conductive layer from the dielectric material
requires destroying integrity of at least one of the
conductive layer and the portion of the dielectric
material.
89. An electrical device including:
a dielectric material comprising a surface
with cavities remaining after removal of some
of the dielectric material;
a conductive layer built up on the dielectric
material so as to fill the cavities and form
substantially angular teeth set in the
dielectric material; and wherein
the conductive layer is a portion of circuitry of
an electrical device, and a plurality of the
teeth being are at least 1 tenth of a mil deep
and less than 1.75 tenths of a mil deep, and
wherein at least one of the cavities includes
an upgrade slope with respect to the surface
of the dielectric material, and one of the teeth

116a
engages a portion of the dielectric material at
the slope.
90. The device of claim 89, wherein, prior to the
conductive layer of material being built up thereon,
the surface with the cavities has a gloss sufficient to
produce a surface gloss measurement at an angle of 60
degrees of less than 10%.
91. The device of claim 89, wherein the teeth have
a dielectric surface contact area greater than a
dielectric surface contact area that would be produced
by a single pass roughening, and some of the teeth
comprise hooked teeth.
92. The device of claim 89, wherein the the
conductive layer fills the cavities sufficiently so as to
produce a peel strength greater than a peel strength
that would be produced by a single desmear process,
and Some of the teeth mechanically grip the dielectric
material, more than by adherence.
93. The device of claim 89, wherein the conductive
layer built up is built up sufficiently that separation of
the conductive layer from the dielectric material would
destroy integrity of at least one of the conductive layer
and the dielectric material.
94. An electrical device including:
a conductive layer of material built up on a
surface of a layer of a dielectric material, the
layers joined in a saw tooth manner made of
both materials in an interlocking bite;
wherein

117a
the conductive layer is a portion of circuitry of
an electrical device, the conductive layer is
comprised of teeth such that a sample of the
circuitry has a frequency of the teeth
sufficient to provide at least 5,000 of the teeth
per linear inch, the teeth the teeth set
respectively in cavities of the bite and a
plurality of the teeth are within the range of
1 tenth of a mil deep to 1.75 tenths of a mil
deep, and
wherein at least one of the cavities includes
an upgrade slope with respect to the surface,
and one of the teeth engages a portion of the
dielectric material at the slope.
95. The device of claim 94, wherein the electrical
device comprises a micro via interconnect.
96. The device of claim 94, wherein, prior to the
conductive layer of material being built up thereon,
the surface has a gloss sufficient to provide a surface
gloss measurement at an angle of 60 degrees of less
than 10%.
97. The device of claim 94, wherein the teeth have
a dielectric surface contact area that is greater than a
dielectric surface contact area that would be produced
by a single pass roughening, and some of the teeth
comprise hooked teeth.
98. The device of claim 94, wherein the conductive
layer built up is built up sufficiently to produce a peel
strength greater than a peel strength that would be
produced by a single desmear process, and some of the

118a
teeth mechanically grip the dielectric material, more
than by adherence.
99. The device of claim 94, wherein the conductive
layer built up is built up sufficiently that separation of
the conductive layer from the dielectric material would
destroy integrity of at least one of the conductive layer
and the dielectric material.
100. An electrical device including:
a conductive layer built up so as to fill
undercuttings with respect to a surface of a
dielectric material So as to form teeth in
cavities, a plurality of the undercuttings
being obtuse to the surface, wherein
the conductive layer is a portion of circuitry of
an electrical device, and a plurality of the
teeth are within the range of 1 tenth of a mil
deep to 1.75 tenths of a mil deep, and
wherein at least one of the cavities includes
an upgrade slope with respect to the surface
of the dielectric material, and one of the teeth
engages a portion of the dielectric material at
the slope.
101. An electrical device including:
a dielectric material surface with cavities
sufficient to produce a surface gloss
measurement at an angle of 60 degrees of less
than 10%; and

119a
electrical device circuitry comprised of a
conductive layer built up so as to fill in the
cavities and form teeth, wherein a plurality of
the cavities are obtusely angled with respect
to the surface, and a plurality of the teeth are
within the range of 1 tenth of a mil deep to
1.75 tenths of a mil deep, and
wherein at least one of the cavities includes
an upgrade slope with respect to the surface
of the dielectric material, and one of the teeth
engages a portion of the dielectric material at
the slope.
102. The device of claim 101, wherein the teeth
have a dielectric surface contact area that is greater
than a dielectric surface contact area that would be
produced by a single pass roughening, and some of the
teeth comprise hooked teeth.
103. The device of claim 101, wherein the
conductive layer fills in the cavities sufficiently to
produce a peel strength greater than a peel strength
that would be produced by a single desmear process,
and some of the teeth mechanically grip the dielectric
material, more than by adherence.
104. The device of claim 101, wherein the
conductive layer is sufficiently built up that separation
of the conductive layer from the dielectric material
destroys integrity of at least one of the conductive
layer and the dielectric material.
105. An electrical device including:
a dielectric material; and

120a
electrical device circuitry comprising a
conductive layer built up on the dielectric
material at a dielectric surface having an area
greater than a dielectric surface area that
would be produced by a single pass
roughening; and wherein
the conductive layer is comprised of plurality
of the teeth within cavities that are within the
range of 1 tenth of a mil deep to 1.75 tenths of
a mil deep, and
wherein at least one of the cavities includes
an upgrade slope with respect to the surface
of the dielectric material, and one of the teeth
engages a portion of the dielectric material at
the slope.
106. The device of claim 105, wherein the electrical
device comprises a micro via interconnect.
107. The device of claim 105, wherein the
conductive layer built up is built up in the cavities
sufficiently to produce a peel strength greater than a
peel strength that would be produced by a single
desmear process, and some of the teeth mechanically
grip the dielectric material, more than by adherence.
108. The device of claim 105, wherein the
conductive layer built up is built up sufficiently that
separation of the conductive layer from the dielectric
material requires destroying integrity of at least one
of the conductive layer and the dielectric material.
109. An electrical device including:

121a
a dielectric material comprising a surface;
a conductive layer forming a portion of
circuitry of an electrical device; and
means for joining the conductive layer to the
dielectric material, the means including a
structuring of teeth built up on the dielectric
material and comprised of the conductive
layer and angled sufficiently for mechanically
gripping the dielectric material in three
dimensions,
wherein a plurality of the teeth are within the
range of 1 tenth of a mil deep to 1.75 tenths of
a mil deep, and wherein at least one of the
cavities includes an upgrade slope with
respect to the surface of the dielectric
material, and one of the teeth engages a
portion of the dielectric material at the slope.
110. An electrical device including:
a dielectric material comprising a surface;
and
means for joining a conductive layer built up
on the dielectric material so as to produce a
peel strength greater than a peel strength
that would be produced by a single desmear
process, wherein the conductive layer is a
portion of circuitry, and portions of the
conductive layer are in cavities obtuse to a top
surface of the dielectric material, wherein the
means for joining is comprised of teeth, and a

122a
plurality of the teeth that are within the
range of 1 tenth of a mil deep to 1.75 tenths of
a mil deep, and
wherein at least one of the cavities includes
an upgrade slope with respect to the surface
of the dielectric material, and one of the teeth
engages a portion of the dielectric material at
the slope.
111. An electrical device including:
a dielectric material; and
electrical device circuitry comprising a
conductive layer built up on a surface of the
dielectric material so as to produce teeth set
in cavities and a peel strength greater than a
peel strength that would be produced by a
single desmear process; and wherein
plurality of the teeth that are within the
range of 1 tenth of a mil deep to 1.75 tenths of
a mil deep, and wherein at least one of the
cavities includes an upgrade slope with
respect to the surface of the dielectric
material, and one of the teeth engages a
portion of the dielectric material at the slope.
112. The device of claim 111, wherein the electrical
device comprises a circuit board.
113. The device of claim 111, wherein the
conductive layer built up is built up sufficiently that
separation of the conductive layer from the dielectric

123a
material would destroy integrity of at least one of the
conductive layer and the dielectric material.
114. An electrical device including:
a dielectric material having a surface
remaining from removal of a portion of the
dielectric material; and
means for mechanically gripping a conductive
layer to the surface of the dielectric material
so that the conductive layer is burrowed in
and under the top surface of the dielectric
material, wherein the conductive layer forms
a portion of circuitry of an electrical device,
wherein the means for mechanically gripping
is comprised of teeth, and a plurality of the
teeth are within the range of 1 tenth of a mil
deep to 1.75 tenths of a mil deep, and
wherein at least one of the cavities includes
an upgrade slope with respect to the surface
of the dielectric material, and one of the teeth
engages a portion of the dielectric material at
the slope.
115. An electrical device including:
a dielectric material; and
electrical device circuitry comprising a
conductive layer built up on the dielectric
material sufficiently that separation of the
conductive layer from the dielectric material
would require destroying integrity of the
conductive layer and of the dielectric

124a
material, wherein the conductive layer is
comprised of teeth in cavities, a plurality of
the teeth being within the range of 1 tenth of
a mil deep to 1.75 tenths of a mil deep, and
wherein at least one of the cavities includes
an upgrade slope with respect to the surface
of the dielectric material, and one of the teeth
engages a portion of the dielectric material at
the slope.
116. An electrical device including:
a dielectric material having a surface with a
gloss sifficient for surface gloss measurement
at an angle of 60 degrees of less than 10%; and
circuitry of an electrical device comprised of a
conductive layer on the dielectric material,
wherein the conductive layer is comprised of
teeth in cavities, a plurality of the teeth being
within the range of 1 tenth of a mil deep to
1.75 tenths of a mil deep, and
wherein at least one of the cavities includes
an upgrade slope with respect to the surface
of the dielectric material, and one of the teeth
engages a portion of the dielectric material at
the slope.
117. The device of claim 116, wherein the
conductive layer built up on the dielectric material is
built up sufficiently that separation of the conductive
layer from the dielectric material would destroy
integrity of the conductive layer.

125a
118. The device of claim 116, wherein the
conductive layer built up on the dielectric material is
built up sufficiently that separation of the conductive
layer from the dielectric material would destroy
integrity of the dielectric material.
119. The device of claim 116, wherein the
conductive layer built up on the dielectric material is
built up sufficiently that separation of the conductive
layer from the dielectric material would destroy
integrity of the conductive layer and the dielectric
material.
120. An electrical device including:
a dielectric material having a surface; and
means for joining a conductive layer built up
on the dielectric material at a surface having
a contact area greater than a dielectric
surface contact area that would be produced
by a single pass roughening, wherein the
conductive layer is a portion of circuitry of an
electrical device, wherein the conductive layer
is comprised of teeth in cavities, a plurality of
the teeth being within the range of 1 tenth of
a mil deep to 1.75 tenths of a mil deep, and
wherein at least one of the cavities includes
an upgrade slope with respect to the surface
of the dielectric material, and one of the teeth
engages a portion of the dielectric material at
the slope.
121. An electrical device including:

126a
a dielectric material including a surface; and
means for joining a conductive layer built up
on the dielectric material sufficiently that
separation of the conductive layer from the
dielectric material requires destroying
integrity of at least one of the conductive layer
and the dielectric material, said means for
joining comprising filled cavities that form a
portion of circuitry of the electrical device
comprised of teeth, a plurality of the teeth
being within the range of 1 tenth of a mil deep
to 1.75 tenths of a mil deep, and
wherein at least one of the cavities includes
an upgrade slope with respect to the surface
of the dielectric material, and one of the teeth
engages a portion of the dielectric material at
the slope.
122. The device of any one of claims 83, 89, 93, 100,
101, 105, 109, 110, 111, 114, 115, 116, 120, or 121
wherein: a sample of the circuitry has a frequency of
the teeth sufficient to provide at least 5,000 said teeth
per linear inch.
123. The device of any one of claims 83, 89, 93, 100,
101, 105, 109, 110, 111, 114, 115, 116, 120, or 121
wherein: a sample of the circuitry has a frequency of
the teeth sufficient to provide at least 10,000 said teeth
per linear inch.
124. The device of any one of claims 83, 89, 93, 100,
101, 105, 109, 110, 111, 114, 115, 116, 120, or 121
wherein: a sample of the circuitry has a frequency of

127a
the teeth sufficient to provide at least 15,000 said teeth
per linear inch.
125. The device of any one of claims 83, 89, 93, 100,
101, 105, 109, 110, 111, 114, 115, 116, 120, or 121
wherein: a sample of the circuitry has a frequency of
the teeth sufficient to provide at least 25,000 said teeth
per square inch.
126. The device of any one of claims 83, 89, 93, 100,
101, 105, 109, 110, 111, 114, 115, 116, 120, or 121
whereto:
a sample of the circuitry has a frequency of
the teeth sufficient to provide at least 100,000
said teeth per square inch.
127. The device of any one of claims 83, 89, 93, 100,
101, 105, 109, 110, 111, 114, 115, 116, 120, or 121
whereto: a sample of the circuitry has at least 200,000
said teeth per square inch.
128. The device of any one of claims 83, 89, 93, 100,
101, 105, 109, 110, 111, 114, 115, 116, 120, or 121
wherein: a sample of the circuitry has at least 20% of
the teeth have a shape that mechanically grips the
dielectric material.
129. The device of any one of claims 83, 89, 93, 100,
101, 105, 109, 110, 111, 114, 115, 116, 120, or 121
wherein: a sample of the circuitry has at least 50% of
the teeth structured obtusely with respect to a line
within a plane defined by a surface of the dielectric
material that was removed.

128a
130. The device of any one of claims 83, 89, 93, 100,
101, 105, 109, 110, 111, 114, 115, 116, 120, or 121
wherein: a sample of the circuitry has at least 20% of
the teeth that are at least 1 tenth of a mil deep.
131. The device of any one of claims 83, 89, 93, 100,
101, 105, 109, 110, 111, 114, 115, 116, 120, or 121
wherein: a sample of the circuitry has at least 50% of
the teeth that are at least 1 tenth of a mil deep.
132. The device of any one of claims 83, 89, 93, 100,
101, 105, 109, 110, 111, 114, 115, 116, 120, or 121
wherein: a sample of the circuitry has at least 20% of
the teeth that are within the range of 1 tenth of a mil
deep to 1.75 tenths of a mil deep.
133. The device of any one of claims 83, 89, 93, 100,
101, 105, 109, 110, 111, 114, 115, 116, 120, or 121
wherein: a sample of the circuitry has at least 50% of
the teeth that are within the range of 1 tenth of a mil
deep to 2 tenths of a mil deep.
134. The device of any one of claims 83, 89, 93, 100,
101, 105, 109, 110, 111, 114, 115, 116, 120, or 121
wherein: a sample of the circuitry has at least 20% of
the teeth that are in the range of 1.5 tenths of a mil
deep to 1.75 tenths of a mil deep.
135. The device of any one of claims 83, 89, 93, 100,
101, 105, 109, 110, 111, 114, 115, 116, 120, or 121
wherein: a sample of the circuitry has at least 50% of
the teeth that are in the range of 1.5 tenths of a mil
deep to 1.75 tenths of a rail deep.
136. The device of claim 124, wherein the circuitry
of the electrical device is comprised of multi-layer

129a
circuitry, one of said layers comprising said teeth and
another of said layers comprising corresponding teeth.
137. The device of claim 125, wherein the circuitry
of the electrical device is comprised of multi-layer
circuitry, one of said layers comprising said teeth and
another of said layers comprising corresponding teeth.
138. The device of claim 126, wherein the circuitry
of the electrical device is comprised of multi-layer
circuitry, one of said layers comprising said teeth and
another of said layers comprising corresponding teeth.
139. The device of claim 127, wherein the circuitry
of the electrical device is comprised of multi-layer
circuitry, one of said layers comprising said teeth and
another of said layers comprising corresponding teeth.
140. The device of claim 128, wherein the circuitry
of the electrical device is comprised of multi-layer
circuitry, one of said layers comprising said teeth and
another of said layers comprising corresponding teeth.
141. The device of claim 129, wherein the circuitry
of the electrical device is comprised of multi-layer
circuitry, one of said layers comprising said teeth and
another of said layers comprising corresponding teeth.
142. The device of claim 130, wherein the circuitry
of the electrical device is comprised of multi-layer
circuitry, one of said layers comprising said teeth and
another of said layers comprising corresponding teeth.
143. The device of claim 131, wherein the circuitry
of the electrical device is comprised of multi-layer

130a
circuitry, one of said layers comprising said teeth and
another of said layers comprising corresponding teeth.
144. The device of claim 132, wherein the circuitry
of the electrical device is comprised of multi-layer
circuitry, one of said layers comprising said teeth and
another of said layers comprising corresponding teeth.
145. The device of claim 133, wherein the circuitry
of the electrical device is comprised of multi-layer
circuitry, one of said layers comprising said teeth and
another of said layers comprising corresponding teeth.
146. The device of claim 134, wherein the circuitry
of the electrical device is comprised of multi-layer
circuitry, one of said layers comprising said teeth and
another of said layers comprising corresponding teeth.
147. The device of claim 135 wherein the circuitry
of the electrical device is comprised of multi-layer
circuitry, one of said layers comprising said teeth and
another of said layers comprising corresponding teeth.
148. The device of claim 122, wherein the circuitry
is comprised of double sided circuitry, one side
comprising said teeth and another side comprising
corresponding teeth.
149. The device of claim 123, wherein the circuitry
is comprised of double sided circuitry, one side
comprising said teeth and another side comprising
corresponding teeth.
150. The device of claim 124, wherein the circuitry
is comprised of double sided circuitry, one side

131a
comprising said teeth and another side comprising
corresponding teeth.
151. The device of claim 125, wherein the circuitry
is comprised of double sided circuitry, one side
comprising said teeth and another side comprising
corresponding teeth.
152. The device of claim 126, wherein the circuitry
is comprised of double sided circuitry, one side
comprising said teeth and another side comprising
corresponding teeth.
153. The device of claim 127, wherein the circuitry
is comprised of double sided circuitry, one side
comprising said teeth and another side comprising
corresponding teeth.
154. The device of claim 128, wherein the circuitry
is comprised of double sided circuitry, one side
comprising said teeth and another side comprising
corresponding teeth.
155. The device of claim 129, wherein the circuitry
is comprised of double sided circuitry, one side
comprising said teeth and another side comprising
corresponding teeth.
156. The device of claim 130, wherein the circuitry
is comprised of double sided circuitry, one side
comprising said teeth and another side comprising
corresponding teeth.
157. The device of claim 131, wherein the circuitry
is comprised of double sided circuitry, one side

132a
comprising said teeth and another side comprising
corresponding teeth.
158. The device of claim 132, wherein the circuitry
is comprised of double sided circuitry, one side
comprising said teeth and another side comprising
corresponding teeth.
159. The device of claim 133, wherein the circuitry
is comprised of double sided circuitry, one side
comprising said teeth and another side comprising
corresponding teeth.
160. The device of claim 134, wherein the circuitry
is comprised of double sided circuitry, one side
comprising said teeth and another side comprising
corresponding teeth.
161. The device of claim 135, wherein the circuitry
is comprised of double sided circuitry, one side
comprising said teeth and another side comprising
corresponding teeth.
162. A process of making the electrical device
product of any one of claims 83, 89, 94, 100, 101, 105,
109, 110, 111, 114, 116, 120, or 121, the method
including: forming means for joining by building up a
conductive layer on a dielectric material surface
remaining from removal of a portion of the dielectric
material to form a portion of circuitry in the electrical
device.
* * * * *

133a
UNITED STATES PATENT AND TRADEMARK
OFFICE
CERTIFICATE OF CORRECTION
PATENT NO.
APPLICATION NO.
DATED
INVENTOR(S)

: 7,501,582 B2
: 10/790363
: March 10, 2009
: McDermott et al.

It is certified that error appears in the above-identified
patent and that said Letters Patent is hereby corrected
as shown below:
Column 9, line 35, after the delete top.
Column 10, line 14, after surface, insert ----.
Column 11, line 31, insert -- a-- before portion.
Column 11, lines 35-36, delete cavities are obtusely
angled and.
Column 12, line 47, delete top.
Column 17, line 21, delete top.
Column 24 line 33, delete method and there insert -process --.
Column 24 line 38, add the following claims:
163. The process of any one of claims 1, 7, 12, 18, 19,
23, 27, 28, 32, 33, 38, 39, further including subjecting
the dielectric material to a first etching of the dielectric
material and a second etching of the dielectric
material.

134a
164. The device of any one of claims 83, 89, 94, 100,
101, 109, 110, 111, 114, 115, 116, 120, and 121,
wherein the dielectric material is nonhomogeneous.
165. The device of any one of 83, 89, 94, 100, 101, 109,
110, 111, 114, 115, 116, 120, and 121, wherein the
metal layer is comprised of a conductive coating.
Signed and Sealed this
Eleventh Day of May, 2010
/s/ David J. Kappos
David J. Kappos
Director of the United States Patent and Trademark
Office

135a
UNITED STATES PATENT AND TRADEMARK
OFFICE
CERTIFICATE OF CORRECTION
PATENT NO.
APPLICATION NO.
DATED
INVENTOR(S)

: 7,501,582 B2
: 10/790363
: March 10, 2009
: McDermott et al.

It is certified that error appears in the above-identified
patent and that said Letters Patent is hereby corrected
as shown below:
Delete the title page and substitute therefore the
attached title page showing the corrected number of
claims in the patent.
Column 9, line 35, after the delete top.
Column 10, line 14, after surface, insert ----.
Column 11, line 31, insert -- a-- before portion.
Column 11, lines 35-36, delete cavities are obtusely
angled and.
Column 12, line 47, delete top.
Column 17, line 21, delete top.
Column 24 line 33, delete method and there insert -process --.
Column 24 line 38, add the following claims:

136a
163. The process of any one of claims 1 7, 12, 18, 19,
23, 27, 28, 32, 33, 38, 39, further including subjecting
the dielectric material to a first etching of the dielectric
material and a second etching of the dielectric
material.
164. The device of any one of claims 83, 89, 94, 100,
101, 109, 110, 111, 114, 115, 116, 120, and 121,
wherein the dielectric material is nonhomogeneous.
165. The device of any one of 83, 89, 94, 100, 101, 109,
110, 111, 114, 115, 116, 120, and 121, wherein the
metal layer is comprised of a conductive coating.
This certificate supersedes the
Correction issued May 11, 2010.

Certificate

of

Signed and Sealed this
Twenty-second Day of June, 2010
/s/ David J. Kappos
David J. Kappos
Director of the United States Patent and Trademark
Office

137a
CERTIFICATE OF CORRECTION (continued)
(12)

United States Patent
McDermott et al.

(10)
(45)

Patent No.: US 7,501,582 B2
Date of Patent: Mar. 10, 2009

(54)

ELECTRICAL DEVICE AND METHOD FOR
MAKING SAME

(75)

Inventors: Brian J. McDermott, Winter Springs,
FL (US); Daniel McGowan, Casselberry, FL
(US), Ralph Leo Spotts, Jr., Lake Mary, FL
(US), Sid Tryzbiak, Winter Springs, FL (US)

(73)

Assignee: Peter K. Trzyna, Esq., Chicago, IL
(US)

(*)

Notice: Subject to any disclaimer, the term of
this patent is extended or adjusted under 35
U.S.C. 154(b) by 98 days.

(21)

Appl. No.: 10/790,363

(22)

Filed: Mar. 1, 2004

(65)

Prior Publication Data
US 2004/0163847. A1 Aug. 26, 2004

Related U.S. Application Data
(63)

Continuation of application No. 09/694,099,
filed on Oct. 20, 2000, now Pat. No. 6,700,069,

138a
and a continuation of application No.
08/905,619, filed on Aug. 4, 1997, now Pat. No.
6,141,870.
(51)

Int. Cl.
H0SK 1/03 (2006.01)

(52)

U.S. Cl. ................... 174/255: 174/256: 174/257

(58)

Field of Classification Search ....... 174/255-262;
20/850–853; 216/15-16
See application file for complete search history.
(56)

References Cited

U.S. PATENT DOCUMENTS
5,158,827 A * 10/1992 Katagiri et al. ........... 428/332
5,517,758 A * 5/1996 Nakamura .................... 29/852
* cited by examiner
Primary Examiner-Tuan T. Dinh
(57)

ABSTRACT

A multilayer electrical device, such as a printed circuit
board, having a tooth structure including a metal layer
set in a dielectric. The device includes a base; a
conductive layer adjacent to the base; a dielectric
material adjacent to conductive layer, a tooth
structure including a metal layer set in the dielectric
material to join the dielectric material to the metal
layer, and wherein the metal layer forms a portion of
circuitry in a circuit board having multiple layers of
circuitry.

139a
165 Claims, 2 Drawing Sheets
(1 of 2 Drawing Sheet(s) Filed in Color)

